<html>
<title> - ESEA REAUTHORIZATION: SUPPORTING STUDENT HEALTH, PHYSICAL EDUCATION, AND WELL-BEING</title>
<body><pre>[Senate Hearing 111-1124]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 111-1124
 
 ESEA REAUTHORIZATION: SUPPORTING STUDENT HEALTH, PHYSICAL EDUCATION, 
                             AND WELL-BEING 

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

        EXAMINING ELEMENTARY AND SECONDARY EDUCATION ACT (ESEA) 
   REAUTHORIZATION, FOCUSING ON SUPPORTING STUDENT HEALTH, PHYSICAL 
                       EDUCATION, AND WELL-BEING

                               __________

                              MAY 18, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-645 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 























          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut           MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland              JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico                  LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington                   RICHARD BURR, North Carolina
JACK REED, Rhode Island                    JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont               JOHN McCAIN, Arizona
SHERROD BROWN, Ohio                        ORRIN G. HATCH, Utah
ROBERT P. CASEY, JR., Pennsylvania         LISA MURKOWSKI, Alaska
KAY R. HAGAN, North Carolina               TOM COBURN, M.D., Oklahoma
JEFF MERKLEY, Oregon                       PAT ROBERTS, Kansas
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado
                                       
                                       

                      Daniel Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)

  



















                            C O N T E N T S

                               __________

                               STATEMENTS

                         TUESDAY, MAY 18, 2010

                                                                   Page
Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     2
Pate, Russell R., Ph.D., Professor in the Department of Exercise 
  Science, Associate Vice President for Health Sciences, and 
  Director of Children's Physical Activity Research Group, Arnold 
  School of Public Health, University of South Carolina, 
  Columbia, SC...................................................     4
    Prepared statement...........................................     5
Shriver, Timothy, Chairman and CEO, Special Olympics, Washington, 
  DC.............................................................     6
    Prepared statement...........................................     8
Yancy, Antronette (Toni), Professor, Department of Health 
  Services, USL School of Public Health, and Co-director, UCLA 
  Kaiser Permanente Center for Health Equity, Los Angeles, CA....    15
    Prepared statement...........................................    16
Levin, Barbara, MPH, MD, CEO, Chota Community Health Services, 
  Madisonville, TN...............................................    19
    Prepared statement...........................................    20
Kirkpatrick Beth, Co-director, Grundy Center PE4Life Academy, 
  Grundy Center, IA..............................................    24
    Prepared statement...........................................    26
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    51

                                 (iii)

  


 ESEA REAUTHORIZATION: SUPPORTING STUDENT HEALTH, PHYSICAL EDUCATION, 
                             AND WELL-BEING

                              ----------                              


                         TUESDAY, MAY 18, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:28 p.m. in Room 
SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Casey, Franken, and Enzi.

                  Opening Statement of Senator Harkin

    The Chairman. The Health, Education, Labor, and Pensions 
Committee will please come to order.
    Today's hearing will explore how physical activity, good 
health, and sound nutrition can enhance students' ability to 
succeed in school and in life. It alarms me that many health 
experts now predict that today's generation of kids will be the 
first to have a shorter lifespan than their parents. Our young 
people are confronted by a twin epidemic of obesity and 
diabetes. Many children are now experiencing health problems 
that historically affected adults almost exclusively. Studies 
show that students who are physically active are healthier, 
feel better, and perform better in school. Yet, we continue to 
tolerate a status quo where too few students have educational 
opportunities that fully integrate physical activity, health 
education, good nutrition.
    This reauthorization of the Elementary and Secondary 
Education Act (ESEA) offers us an important opportunity to 
improve the health and well-being of millions of our students. 
We need to provide better opportunities for physical activity. 
We need to make sure our students have nutritious food in 
school. We need to increase access to mental health services in 
our schools. And if our ambition is to create America as a 
genuine wellness society, then it begins by giving our kids a 
healthy start, and that means in school.
    Now, by all means, we want our children to excel 
academically. It's not just enough to do well in school; we 
also need to encourage physical activity and assist students 
with making healthy choices, things that contribute to overall 
wellness. The two are not mutually exclusive. This means 
ensuring that our kids have time each day for physical 
activity, and teaching them about proper nutrition and healthy 
habits. Studies show that kids who have the opportunity to be 
active have positive academic outcomes. I read all your 
statements yesterday, and many of you allude to these studies.
    I'm especially concerned about doing right by the more than 
30 million students receiving free- and reduced-price lunches. 
For low-income kids who are disproportionately victims of the 
twin epidemic of obesity and diabetes, having enough food, and 
eating nutritious food, are both imperatives.
    Students with disabilities, both physical and intellectual 
disabilities, can also benefit from increased physical activity 
and wellness initiatives. Access to athletic opportunities 
during childhood is critical for students with disabilities to 
be able to maintain good health and weight, and to learn how to 
have an active lifestyle as they move into adulthood.
    The problem is that too few students with disabilities have 
meaningful opportunities for physical activity alongside their 
peers who do not have physical disabilities. That's why I 
requested the General Accounting Office to examine the athletic 
and physical education opportunities available to students with 
both physical and intellectual disabilities in our elementary 
and secondary schools.
    Today I look forward to hearing our witnesses' views on the 
best wellness strategies--physical activity, nutrition, mental 
health--for our schools. We'll hear about effective strategies 
that are currently in place on a State, district and school 
level, and strategies that specifically address special 
populations and individuals with disabilities.
    At this point, I'll leave the record open for a statement 
by Senator Enzi. I will leave the record open for 30 more 
seconds.
    [Laughter.]
    Senator Enzi. That's good, because I have a real short 
opening statement.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman. Have you given your 
statement?
    The Chairman. Yes, I just.
    Senator Enzi. OK. I thank you for convening today's hearing 
on this issue supporting student health, physical education and 
well-being as a part of this series of hearings on the 
reauthorization of the Elementary and Secondary Education Act.
    I hope that, through questions that we ask, through the 
testimony that you have provided, and that you will provide, 
that we can figure out a way to get kids more active. I know 
you can lead a horse to water, but you can't always make him 
drink. Sometimes the water we offer to children as 
encouragement has to be more exciting. I'm interested in some 
of the new Wii efforts, where you can exercise, and you get 
scored on it. Wii makes it a game to use both balance and 
flexibility with some of the running activities and other 
activities.
    The well-being of our children is important. Healthy, 
active children are more productive, and they're more engaged 
in learning and other activities. I read a book called ``Brain 
Rules 12 Principles of Survival'' that actually teaches you 
subtly about the brain at the same time that it covers the 
value of exercise.
    I look forward to hearing from each of the witnesses and 
their experience in these issues and the impact their work has 
had on children. We want to hear from them today and have them 
assist us as we fix No Child Left Behind, so that kids graduate 
from high school, better prepared for college.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Enzi.
    I'll introduce our witnesses and then we'll move ahead.
    First we have, from left to right, Dr. Russell Pate, a 
professor from the University of South Carolina in the 
Department of Exercise Science. Dr. Pate has extensively 
studied physical activity in preschool through high school 
students for over 25 years. As a member of the President's 
Council on Physical Fitness and Sports, Dr. Pate has advised 
Presidents on physical activity, fitness, and sports in 
America.
    Next, Timothy Shriver, who has dedicated his career to 
teaching about the social and emotional factors in learning and 
expanding opportunities for special populations. In his most 
recent capacity as the chairman of the Special Olympics, Mr. 
Shriver has transformed the program to include initiatives in 
athlete leadership, family support, and inclusion for 
individuals with intellectual disabilities.
    Following Mr. Shriver, we'll hear from Antronette, or Toni, 
Yancey, a professor in the Department of Health Sciences at 
UCLA, and the co-director of UCLA Kaiser Permanente Center for 
Health Equity. Dr. Yancey is an expert on adolescent health 
promotion and specializes in interventions engaging underserved 
communities.
    Then we'll hear from Barbara Levin, the CEO of Chota 
Community Health Services, which operates school-based health 
centers in Monroe County, TN. These centers provide 
comprehensive medical care, social services, and youth 
development to children and adolescents in schools, regardless 
of their ability to pay for services.
    Finally, we'll hear from Beth Kirkpatrick, a co-director of 
the Grundy Center PE4life Academy. With 20 years of experience 
teaching health and physical education, Ms. Kirkpatrick is 
knowledgeable about proven methods for engaging youth in 
quality physical education that improves the overall health and 
wellness of children.
    I thank you all for joining us to share your expertise at 
today's hearing. As I said, this is about reauthorizing ESEA, 
and I'm hopeful that one of the things that we'll focus on is 
how we expand opportunities, and encourage schools to have 
programs that provide for better physical fitness for our kids, 
from elementary school all the way through high school.
    I read all your testimonies yesterday. They're excellent 
testimonies. They'll all be made a part of the record in their 
entirety. And I'd like to ask if you would take 5 minutes and 
just sum up the main point, and we'll just move down; and 
hopefully we can finish that before we have to leave for our 
first vote.
    Dr. Pate, welcome to the committee, and please proceed.

     STATEMENT OF RUSSELL R. PATE, Ph.D., PROFESSOR IN THE 
 DEPARTMENT OF EXERCISE SCIENCE, ASSOCIATE VICE PRESIDENT FOR 
 HEALTH SCIENCES, AND DIRECTOR OF CHILDREN'S PHYSICAL ACTIVITY 
 RESEARCH GROUP, ARNOLD SCHOOL OF PUBLIC HEALTH, UNIVERSITY OF 
                  SOUTH CAROLINA, COLUMBIA, SC

    Mr. Pate. Senator Harkin, Senator Enzi, Senator Franken, 
I'm thrilled to be here, and I very much appreciate the 
attention that you're focusing on today, the health and 
wellness of our children.
    I've been doing research on physical activity and kids for 
over 25 years, and during that period, I've been honored to 
serve on a number of Federal advisory committees and national 
panels. All of that experience has led me to four conclusions 
that I think are pertinent to today's discussions:
    First, in order to be fully healthy, kids need an hour a 
day of moderate to vigorous physical activity.
    Second, unfortunately, most American kids don't meet that 
standard today; in fact, we've learned that most of them don't 
come close to meeting that standard.
    Third, if our kids are going to meet physical activity 
guidelines, and accrue the health benefits that are associated 
with meeting the guideline, schools are going to have to 
deliver the highest-quality physical activity programs.
    And I believe, fourth, that an essential step in ensuring 
that the schools do that is that they be held accountable for 
the quality and quantity of physical activity programming that 
they're providing to their students.
    I think it's important for us to think for a moment about 
just how much our society has changed in recent decades. We 
have systematically removed physical activity from our lives. 
We've done that in almost every aspect of our lives. Elevators 
have replaced stairs, automobiles have replaced bicycles, and 
computers have replaced physical labor. At the same time, our 
culture has become saturated with forms of entertainment that 
tend to pull us away from physically active leisure pursuits. 
And the net effect of all that has been a marked decrease in 
our physical activity.
    I think it's important for us to recognize that our 
children live in the same world that we live in; they are 
influenced by it in the same ways that we are. Today's kids, I 
think, have never really known a world like the one that most 
of us grew up in. That was the one where walking to school was 
the norm; where, when you came home after school, mom probably 
pushed you out the back door and said, ``Go play until 
dinner''; and that school physical education was probably a 
much more prominent component of the curriculum than it is in 
many of our schools today.
    Now, there's not going to be a magic bullet or an easy 
solution to this. Reversing the downward trend in physical 
activity is going to require changes in many components of our 
society. Just 2 weeks ago, Dr. Yancey and I were here in 
Washington, DC, for the release of the first U.S. National 
Physical Activity Plan, which is a private-public coalition of 
organizations that have made over 215 recommendations for 
changes that we should make in order to support higher levels 
of physical activity for our kids and all the rest of us. In 
that plan, the education sector is very prominent, and we 
believe it will be central to promoting physical activity in 
our kids.
    So, what can the schools do? Well, both the Institute of 
Medicine and the American Heart Association have called for 
kids to get at least half of that 60-minute daily physical 
activity quota during the school day. There are a lot of ways 
in which the schools can support that. We can support active 
transport initiatives, like safe routes to school. We can 
ensure that the schools are providing daily recess breaks. We 
can include physically active teaching/learning strategies in 
the classroom. We can expand and enrich extracurricular 
physical activity programs so that they're serving all kids, 
and, most critically, we can ensure that all schools meet 
prevailing national standards for the quality and quantity of 
physical education that they provide to the students.
    Now, we all know that, in recent years, schools have come 
under heavy scrutiny with regard to their effectiveness in 
producing academic achievement. Unfortunately, I believe that 
an unintended negative consequence has been a diversion of 
resources away from physical education. But, if the goal is to 
enhance student academic achievement, there's mounting evidence 
that reducing a child's physical activity may, very well, 
negatively impact his or her academic achievement. And I quote 
from the conclusion of a very recently released CDC report,

          ``There is substantial evidence that physical 
        activity can improve academic achievement, including 
        grades and test scores. Increasing or maintaining time 
        dedicated to physical education may help, and does not 
        appear to adversely impact academic performance.''

    Finally, I'm convinced that we must create a system in 
which the schools are held accountable for the delivery of high 
quality physical activity programs. You all know that the FIT 
Kids Act is under consideration, recently passed in the House. 
I'm very hopeful that it'll pass in the Senate, as well, and I 
strongly support your taking that action.
    Thank you very much for having me here today.
    [The prepared statement of Dr. Pate follows:]
              Prepared Statement of Russell R. Pate, Ph.D.
    Senator Harkin and members of the committee, I am honored to have 
the opportunity to participate in today's hearing, and I greatly 
appreciate the attention that you are focusing on the health and well-
being of our Nation's youth.
    My 25 years of experience in conducting research on physical 
activity in children and adolescents and my service on a number of 
national panels and Federal advisory committees related to promotion of 
physical activity and prevention of childhood obesity have led me to 
four important conclusions:

    1. To achieve and maintain good health our young people should 
engage in 60 or more minutes of moderate to vigorous physical activity 
per day.
    2. The vast majority of American children and youth do not meet 
that guideline; indeed most do not come close to meeting it.
    3. If our students are to meet physical activity guidelines and 
accrue the associated health benefits, our schools must deliver 
physical activity programs of the highest quality.
    4. An essential step toward insuring that our schools effectively 
provide and promote physical activity in their students is to hold 
those schools accountable for providing physical education and other 
physical activity programs that meet best-practice standards.

    Over the past several decades our society has changed in ways that 
have profoundly affected our physical activity behavior. We have 
drastically reduced the demand for physical activity by building work-
saving innovations into almost every aspect of our lives--elevators 
have replaced stairs, automobiles have replaced bicycles, and computers 
have replaced physical labor. At the same time our culture has become 
saturated with forms of entertainment that are sedentary and that tend 
to draw us away from physically active leisure pursuits. The net effect 
has been a marked decrease in our physical activity levels. And make no 
mistake about it, our children live in the same world we do--and it is 
one that demands very little physical activity, presents many barriers 
to physical activity, and is littered with sedentary distracters. 
Indeed, today's children have never known a world like the one that 
many of us grew up in--one in which walking to school was the norm, 
moms pushed kids out the door after school with the directive to go out 
and play until dinner, and school physical education was a much more 
prominent component of the curriculum than it is in many schools today.
    Reversing the downward trend in physical activity in our children 
and youth will require changes in many components of our society. Just 
2 weeks ago I was here in Washington, DC with my colleague Dr. Yancey 
for the release of the first U.S. National Physical Activity Plan, 
private-public multi-organizational initiative calling for 
implementation of over 200 policies and practices across eight societal 
sectors. The Education Sector is prominently featured in the National 
Plan and it will be central in our efforts to increase physical 
activity in young people. In my view, it would not be fair or realistic 
to expect our schools to solve the entire youth physical activity 
problem that we confront. Clearly parents must play a central role, and 
community providers of youth services will be important too. However, I 
do believe it is both fair and indeed essential that our schools lead 
the way and do everything they reasonably can do to help us overcome 
this problem.
    What should our schools do? Both the Institute of Medicine and the 
American Heart Association have called for children and youth to 
receive at least one-half of the recommended 60 minutes of daily 
physical activity during the school day. Schools can insure that kids 
achieve this goal through multiple strategies. They include adoption of 
active transport initiatives like ``safe routes to school,'' daily 
provision of recess breaks, inclusion of physically active teaching-
learning methods in classrooms, expansion and enrichment of 
extracurricular physical activity programs, and collaboration with 
community-based youth service providers in delivery of after-school 
physical activity programs. Most critically, all schools should meet 
prevailing national standards for the quality and quantity of physical 
education provided to students.
    As we all know, in recent years our schools have come under heavy 
scrutiny with regard to their effectiveness in producing academic 
achievement. I believe that an unintended negative consequence has been 
a diversion of resources away from physical education. But if the goal 
is to enhance student academic achievement, there is mounting evidence 
that reducing a child's physical activity may well negatively impact 
his or her academic achievement. I quote from the conclusion of a very 
recently released CDC report:

          ``There is substantial evidence that physical activity can 
        improve academic achievement (including grades and test 
        scores). Increasing or maintaining time dedicated to physical 
        education may help, and does not appear to adversely impact, 
        academic performance.''

    Finally, I am convinced that a step that we must take is creation 
of a system that holds the schools accountable for providing students 
with physical education and other physical activity programs that meet 
accepted national standards. The FIT Kids Act, which recently was 
passed by the House of Representatives, would help create such a system 
and, I believe, would be an enormous step forward. Accordingly, I 
strongly encourage you to support the FIT Kids Act. Thank you very much 
for having me here today.

    The Chairman. Thank you very much, Dr. Pate.
    Now, let's turn to Mr. Shriver, someone I worked with a lot 
through the Special Olympics.

  STATEMENT OF TIMOTHY P. SHRIVER, CHAIRMAN AND CEO, SPECIAL 
                    OLYMPICS, WASHINGTON, DC

    Mr. Shriver. Thank you, Mr. Chairman, Ranking Member Enzi, 
Senator Franken. Thank you for the chance to be here.
    Thank you for welcoming me to Iowa, Mr. Chairman, for your 
support of the work of our organization, and for your 
generations-long leadership on behalf of people with 
intellectual disabilities and other developmental disabilities. 
And, in particular, for your support of our most recent work, 
which we labeled Project UNIfiscal year, an effort to bring the 
best of physical fitness and socialization and health-oriented 
activities to schools in ways that are inclusive and ways that 
involve youth leadership and invite young people to take charge 
of their own futures.
    Last month, I received an e-mail, Senators, and I'll read 
you just a few sentences. It comes from one of our athletes, 
now in her mid-20s, from the State of Virginia. She wrote, in 
part,

          ``When I was growing up, it always seemed that I was 
        different from my brother and my sister. I always 
        dreamed of having what they had. I always knew, deep 
        down, that I was different. I asked myself, `Why was I 
        in this family? What was my purpose?' The hardest part 
        for me was learning that I had a learning disability. 
        Every day, I would wake up feeling OK, but once I 
        realized I had to go to school, I just wanted to pull 
        the covers back over my head. I wanted to go back to 
        sleep, find some way I could stay home. Because each 
        day, I was teased, I was ignored, and I just kept 
        feeling smaller and smaller, until I could not take it 
        anymore.''

    She goes on to describe, sadly, a suicide attempt in high 
school, which, luckily, was unsuccessful. She goes on then to 
describe joining into a physical activity program, Special 
Olympics, and having the relationships and hope that has come 
through a long and slow recovery to live a healthy adult life.
    Sadly, this is not a symptom of one struggling child. This 
is a symptom of an epidemic I've highlighted in my written 
testimony, Senators. This is not just for children with 
intellectual disabilities; the level of struggle across the 
data of dropout, the data of promiscuous sexual activity, the 
data of binge drinking--26 percent of high-school students 
binge drinking, five or more drinks within an hour, within the 
last 30 days. This is the underachievement of our generation. 
We are producing yet another generation that is entering 
adulthood without anything resembling the proper attachment to 
positive values, the sense of their own potential, their 
purpose in life, or their capacity to make a difference and be 
good employees.
    No Child Left Behind Act made a sea change in education; 
asked us to measure, asked us to hold ourselves accountable, 
asked us to have standards in learning. I, for one, welcome 
that change. It is time to match that change with a focus on 
children. It is not enough to focus on tests. It is time we 
focused, also, on teaching and learning, on what it takes to 
bring children into full participation in the life of their 
school, the life of their community, and the life of their 
country.
    Our efforts in Project UNIfiscal year are focused on this--
in particular, for our population. Our population shows a risk 
level of up to 45 percent for obesity, somewhere between two 
and five times the national prevalence--or national risk rate. 
We have an inactive population that is inactive, in large part 
because of social isolation, and in large part that social 
isolation breeds a lack of community engagement, lack of 
extracurricular activities.
    They are bullied disproportionately. Almost 10 percent 
report being bullied within the last week in school. We've had 
terrible examples of that in the news recently.
    Then we have role models in the press, like Sarah 
Silverman--world-class, hugely popular comedian, using 
``retard'' jokes to drive her career in places like TED and on 
HBO, making fun of adopting retarded children, and making sure 
that they're very, very chronically ill, so that she wouldn't 
have to live with them for too long. This kind of attitude that 
dominates our community still, sadly, in my view, represents a 
scandal.
    Our work around young athletes, starting children at age 2; 
our work in unified sports; our work to train children as 
volunteers--to promote service learning, to promote a culture 
where young people themselves are challenged to make the 
difference--we don't just rely on teachers and professionals, 
but we rely on young people to recognize the epidemic, and to 
respond to it--has shown promise. We work with organizations 
like Lions; we promote a healthy lifestyle; we distribute 
glasses; we do health screenings for things like oral 
healthcare problems. The data, at least preliminary data, is 
very promising.
    The most important data, though, is the data of the kids. 
You have wonderful stories of--stories like this, where third-
graders are helping second-graders, where unified activities 
are promoting a sense of understanding at the earliest of ages, 
that, despite difference, we have much in common, and, despite 
all the challenges we face, to play is to learn, to engage, to 
understand, and ultimately to value all people.
    I know that we've had cutbacks. I know we live in difficult 
times. Fit kids should not be expensive kids, play should not 
be an expensive act. Enacting the Eunice Kennedy Shriver Act, 
which you, Senator, have championed, should not be beyond our 
scope as a Nation. Title IX opened the doors of opportunity to 
women. No one would think of discriminating against women, in 
contemporary times in sports, or no one ought to think about 
it. Yet, we still leave generations of young people with 
disabilities on the sidelines, as though it were OK.
    These kinds of changes do not have to break the bank, but 
they can make a difference in our country. The larger context 
is to promote a broader vision, a paradigm shift in education, 
to teach all children to recognize that physical health and 
emotional health drive attention, and attention drives 
learning. All the data we have on programs that promote social 
competence, emotional development, and physical activity 
suggest wide-ranging benefits, from behavioral benefits to 
academic benefits, even to standardized-test gains. The data is 
there, it's time for action.
    Thank you very much.
    [The prepared statement of Mr. Shriver follows:]
                Prepared Statement of Timothy P. Shriver
    Good afternoon Chairman Harkin, Ranking Member Enzi, and members of 
the committee. My name is Timothy P. Shriver and I am CEO of Special 
Olympics, and Board Chairman of the Collaborative for Academic, Social, 
and Emotional Learning, or CASEL. Thank you for the opportunity to 
discuss the health, wellness and academic achievement of our Nation's 
young people.
    My background now includes some 30 years of experience in these 
issues. Throughout my many roles in the world of Special Olympics and 
through my experience in public education, I have always considered 
myself an educator first. I began in the field of education as an 
Upward Bound counselor in 1981 and then became a teacher and then 
Supervisor of Social Development in the Public Schools of New Haven, CT 
in the late 1980's and early 1990's. I earned advanced degrees in 
religious education, in education administration, and in educational 
psychology. In 1993, together with a small group of pioneering 
colleagues, I helped shape the Collaborative for Academic, Social, and 
Emotional Learning (CASEL), where I now serve as Board Chairman. CASEL 
is the world's leading organization advancing research, school 
practice, and public policy focused on the development of children's 
social and emotional competence. Our mission is to establish evidence-
based social and emotional learning (SEL) as an essential part of 
preschool through high school education.
    For the last 15 years, I have been on the worldwide team at Special 
Olympics focused on the gifts of people with intellectual disabilities. 
In my capacity there, my focus has been to make Special Olympics a 
powerful force for teaching young people these same lessons--the power 
of service, joy, and dignity. As you know, Special Olympics now reaches 
over 3.3 million athletes around the world with over 44,000 events per 
year. My hope is that each of these events is a classroom all unto 
itself--that as the athletes of Special Olympics run their races and 
score their goals, they are making a bold and unconditional 
proclamation to their peers, their communities, and their countries--
everyone counts. No exceptions. No one can be left out!! What a 
privilege it has been to have a front row seat watching some of our 
country's most inspiring human beings--young people with and without 
intellectual disabilities--claim their place as leaders in renewing our 
national belief in freedom, dignity, and opportunity. It has been a 
joy.
    In preparing my testimony, it was clear that the work of both 
Special Olympics and CASEL has a direct bearing on the issues before 
this committee and before the Nation. Special Olympics uses sports, 
school-based classroom activities, service opportunities, and school 
climate programs to promote acceptance, inclusion and respect for 
individuals with intellectual disabilities. CASEL translates the latest 
scientific advances to inform school-family-community programming that 
improves social, emotional, and academic outcomes for all children. 
Both organizations emphasize the value of relationships and of 
improving the climate for learning. Both focus on building students' 
capacity to take charge of their own success. And, both recognize the 
crucial connection between health, wellness, and academic achievement. 
The fundamental beliefs that drive both Special Olympics and CASEL are 
more than just good ideas. Rigorous research shows that how a person 
feels--physically and emotionally--and how they interact with others--
has a direct bearing on school and life success.
    We see this daily at Special Olympics as the sting of stigma and 
loneliness creates a cancer that blocks learning and life success. For 
nearly 42 years, Special Olympics has fought that cancer. We have 
always understood that young people with intellectual disabilities will 
not be able to reach their potential in learning, in personal 
development, in independence, and in full societal participation, if 
school environments are not accepting, supportive, and responsive to 
their needs. In recent years, this conviction has been validated 
through research. Where intolerance, rejection, or indifference toward 
youth with intellectual disabilities are the prevailing attitudes in 
schools, they are inflicting lifelong damage on those children. And, 
let me be quick to add, they are inflicting damage on those who 
discriminate as well.
   children will struggle until we meet the needs of the whole child
    No Child Left Behind provided a focus on academic rigor and 
accountability that brought important progress. Achievement gaps have 
been exposed. ``Data'' is now a decisionmaking watchword. Performance 
and improvement is now expected for all children. I welcome these 
changes. But, the job is far from done. Far too many children are still 
achieving well below their potential and far too many children are 
still exhibiting a level of stress and disengagement that suggests an 
epidemic of behavioral and social problems. Even a small snapshot of 
the statistics can be shocking.
    Bullying and safety concerns. Feeling unsafe has a negative impact 
on learning, and as high profile tragedies illustrate, we have not made 
the grade:

    <bullet> Twenty-eight percent of students say they were bullied at 
school within the last 6 months.\1\ Among students with intellectual/
developmental disabilities, some estimates suggest that up to 9 percent 
are bullied or victimized once a week or more.\2\
---------------------------------------------------------------------------
    \1\ U.S. Department of Justice, Bureau of Justice Statistics, 
School Crime Supplement (SCS) to the National Crime Victimization 
Survey, 2005.
    \2\ Developmental Neurorehabilitation 2009, Volt. 12, No. 3, Pages 
146-51 , DOI 10.1080/17518420902971356
---------------------------------------------------------------------------
    <bullet> Seventy-five percent of parents and adults feel bullying 
and violence are serious problems in local schools.\3\
---------------------------------------------------------------------------
    \3\ Public Agenda Survey, April 2010.
---------------------------------------------------------------------------
    <bullet> In 2007, 35.5 percent of students reported being in a 
physical fight within the previous year.\4\
---------------------------------------------------------------------------
    \4\ Centers for Disease Control and Prevention. Youth Risk Behavior 
Surveillance--United States, 2007. MMWR 2008; 57

    Disconnection and disengagement. Students who feel connected to 
their schools and engaged in their learning are more successful 
---------------------------------------------------------------------------
academically and have healthier behavior, yet:

    <bullet> Isolation for children with disabilities remains the norm. 
Only 10 percent of youth say they have a classmate or friend with 
intellectual disabilities.\5\
---------------------------------------------------------------------------
    \5\ Siperstein, G.N., Parker, R.C., Norins Bardon, J., & Widaman, 
K.F. (2007). A National Study of Youth Attitudes toward the Inclusion 
of Students with Intellectual Disabilities. Exceptional Children, 73, 
435-455.
---------------------------------------------------------------------------
    <bullet> 1.2 million students drop out every year, or 7,000 every 
school day.\6\
---------------------------------------------------------------------------
    \6\ White House press release, March 2009.
---------------------------------------------------------------------------
    <bullet> By high school, 40 percent-60 percent of students are 
chronically disengaged from school.\7\ Only 55 percent of high school 
students feel they are an important part of their school community.\8\
---------------------------------------------------------------------------
    \7\ Klem, A.M., & Connell, J.P. (2004). Relationships matter: 
Linking teacher support to student engagement and achievement. Journal 
of School Health, 74(7), 262-273.
    \8\ Yazzie-Mintz, E. (2007). Voices of students on engagement: A 
report on the 2006 high school survey of student engagement. 
Bloomington, IN: Center for Evaluation & Education Policy, Indiana 
University School of Education.
---------------------------------------------------------------------------
    <bullet> Substance abuse and early sexual activity remain rampant 
with 26 percent of high school students reporting engaging in binge 
drinking (five or more drinks within a couple of hours) within the last 
30 days, 14.9 percent of high school students report having had sexual 
intercourse with four or more persons during their life, and 18 percent 
reported carrying a weapon (a gun, knife, or club) within the last 30 
days.
    <bullet> Only between 11 percent-25 percent of persons of 
employment age with intellectual disability have jobs as their 
transition from school to work leaves huge numbers lost and alone.

    Emotional distress and unhealthy behavior. Students must be 
healthy, safe and ready to succeed; yet, many are struggling:

    <bullet> Despite rising obesity, only 34 percent of students engage 
in enough regular physical activity.
    <bullet> Fifteen percent of high school students say they have 
seriously considered suicide within the last year, 11 percent have made 
plans for suicide, and 7 percent have actually attempted to take their 
own lives.\9\
---------------------------------------------------------------------------
    \9\ Center for Disease Control, http://www.cdc.gov/ncipc/dvp/
Suicide/youthsuicide.htm, down
loaded 5/13/10.
---------------------------------------------------------------------------
    <bullet> Forty-four percent of children report stress-related 
sleeping difficulties.\10\
---------------------------------------------------------------------------
    \10\ APA Stress in America Report, 2009.

    In short, the business of making our schools places of success for 
all children is unfinished. For that reason, I am honored to be able to 
share some of the challenges and possible solutions I believe our 
country faces as we seek to reauthorize NCLB.
  school districts are hungry for strategies to teach the whole child
    The challenges are real, but not insurmountable. Rigor and 
accountability alone, however, cannot improve teaching and learning. 
NCLB has focused the Nation on how we measure and monitor achievement, 
but the reauthorization should match that focus on accountability with 
a focus on teaching and learning, on school climate, on community 
engagement, and on the ways in which schools can respond to the crisis 
facing far too many of our children nationwide.
    The good news is that solutions exist and are ready for scale. 
Thanks to you, Senator Harkin, and to the colleagues you have brought 
to this issue, Special Olympics was able to launch Project UNIFY (PU) 
in 2008, a new national demonstration project (now a program) to 
address the challenges that we saw and experienced over four decades. 
PU is a strategy to activate youth, engage educators, and promote 
school communities of acceptance and inclusion where all young people 
are agents of change--fostering respect and dignity for people with 
intellectual disabilities, utilizing the sports and education 
initiatives of Special Olympics. PU utilizes four main approaches: 
youth leadership development, unified activities including Unified 
Sports, communications strategies including social networking, and 
standards-aligned service learning curricula.
    PU is designed to bring all the resources of Special Olympics 
together and to implement them in schools in such a way that we can 
achieve a tipping point in our progress toward healthier and more 
accepting schools. We were fortunate to have a portfolio of successful 
initiatives developed over the years that we could pull together in an 
integrated way and supplement with new approaches that take advantage 
of our research findings and the emerging social networking strategies 
among young people.
    The building blocks of PU are as follows:

    <bullet> Special Olympics Young Athletes Program, a developmental 
physical activity program for children ages 2-7.
    <bullet> Special Olympics Get Into It classroom activities focused 
on service learning and the values of diversity.
    <bullet> Special Olympics Games and Sports Events, our traditional 
joy-filled celebrations of sports.
    <bullet> Special Olympics Unified Sports Teams where athletes with 
and without intellectual disabilities compete on the same teams.
    <bullet> Special Olympics R-Word campaigns, assemblies and rallies.
    <bullet> Special Olympics inclusive Athlete Leadership Programs 
where our athletes and their non-disabled peers are trained to speak 
publicly, serve on boards, advocate for their own interests and 
officiate at sports events, among other roles.

    These components are being implemented by our leaders in States 
around the country in partnership with teachers, community leaders, and 
administrators. We are now coming to the end of year 2 of PU and are 
anxious to start year 3. We are performing rigorous evaluation and will 
continue to apply the lessons learned as best practices going forward.
    Even though PU is still in its early stages, I would like to share 
some select data about how well this program is being received and some 
of the positive impacts it is having.
    There are a number of important lessons that we have learned from 
PU thus far:

    <bullet> 45 U.S. State Special Olympics Programs have been 
involved; 1,700 schools are participating; 667,000 youth have been 
exposed to PU; 11,000 new SO athletes have been recruited; and, 85,000 
youth have engaged with PU.
    <bullet> In participating schools, 27 percent have principal 
involvement and 76 percent of the schools have teachers as the key 
administrators of the project; 36 percent involve four or more teachers 
or adults.
    <bullet> Schools are involving students with and without 
intellectual disability in the planning and implementation of PU, as 
well as other school-based groups, which are developing leadership 
skills among youth with and without intellectual disability.
    <bullet> Young Athletes, serving 2\1/2\-7-year-olds, has now 
reached 17,446 children in North America. Evaluation demonstrates that 
75 percent of teachers reported improvements in cognitive development; 
65 percent of teachers reported improvement in social development; 69 
percent of teachers reported improvement in self help skills; and, 62 
percent of teachers reported improvement in communications development.
    <bullet> For Unified Sports athletes, they, their families, and 
coaches report substantial gains in self-esteem, self-confidence, 
social skills, sport skills, and health; interestingly, similar 
findings were made regarding Unified Sports partners (without ID).
    <bullet> The R-Word ``Spread the Word'' campaign has secured 
131,248 pledges to not use the R-Word and discourage its use by others 
and there are 36,591 members of the Facebook community.
    <bullet> PU is a fun, gateway experience that helps bridge the 
divide between children with and without disabilities. Sports remain a 
powerful factor in breaking down stigma, in contributing to personal 
satisfaction, and in promoting health.
    <bullet> PU addresses the primary determinants of school climate--
social norms, behavioral expectations, and interpersonal relationship 
patterns.
    <bullet> Young people want to be part of a meaningful movement and 
can be entrusted with leadership.
    <bullet> Social justice is a theme that young people respond to and 
sports can be a concrete demonstration of social justice.
    <bullet> Young people themselves can advance true inclusion at 
school and in their communities through sports and education 
activities.
    <bullet> PU is very inexpensive and government funding is being 
highly leveraged through volunteer and community resources.

    The early success of Special Olympics Project Unify is promising 
and leads to key conclusions:

    First, physical education and sports remain powerful vehicles for 
promoting health and for fighting social and attitudinal barriers. ESEA 
ought to elevate the importance of physical education and sport for all 
students. Play and physical activity are serious business and ought to 
be treated as such.
    Second, children with intellectual disabilities will only be 
successful if school climates establish the expectation that they are 
full and valued members of the school community. The barriers to their 
life success are frequently social and relational. ESEA ought to 
include a new focus on school climate that will enable proven 
strategies that create supportive and respectful climates to be at the 
core of educational progress.
    Finally, young people themselves must be invited to lead. Education 
is not simply a knowledge transmission business; it is also a process 
of discovery, of unleashing the spirit within each child, of 
recognizing that young people have gifts to give, not just brains to 
receive. ESEA ought to encourage schools to implement effective student 
leadership and service--learning strategies that are both classroom and 
community-based.
                           the larger context
    As proud as I am to be a small part of the extraordinary work being 
done by Special Olympics athletes and volunteers and by the educators 
who have welcomed them to a place of central importance in schools, I 
also realize that we are only one part of what it will take to make 
schools more responsive to the needs of all children--to all of their 
needs and potential. For that reason, I am a firm believer in the need 
for a new approach to school reform that blends the breakthrough 
science and proven practices of the entire field of social and 
emotional learning with the accountability culture of contemporary 
education. I believe that the social and emotional elements of 
development are the missing piece in school reform and that the neglect 
of the social and emotional factors in learning is one of the reasons 
why it has been so difficult to enable students with intellectual 
disabilities to be accepted. That same neglect is contributing to 
frustration on the part of non-disabled students, but also on the part 
of thousands of teachers, administrators, and parents.
    A school improvement strategy that has an integrated SEL framework 
will be rooted in a fundamentally different vision that integrates the 
science of child development with a more complete concept of what it 
means to be an educated person. Our expectations of young people will 
include, but go beyond, academic competence. Success as a student must 
also mean becoming a caring, compassionate, and confident citizen. 
Schools will go beyond knowledge transfer to become sites for community 
building and development.
    CASEL has reviewed research and educational practice literatures 
from the past 30 years and has established guidelines for effective 
strategies and programming to promote children's social, emotional, and 
academic growth. State-of-the-art SEL practice has the following 
characteristics:

    1. Grounded in theory and research. It is based on sound theories 
of child development, incorporating approaches that demonstrate 
beneficial effects on children's attitudes, behaviors, and school 
performance through scientific research.
    2. Teaches children to apply SEL skills and ethical values in 
school and daily life. Through systematic instruction and application 
of learning to everyday situations, it enhances children's social, 
emotional, and ethical behavior. Children learn to recognize and manage 
their emotions, appreciate the perspectives of others, establish 
positive goals, make responsible decisions, and handle interpersonal 
situations effectively. They also develop responsible and respectful 
attitudes and values about self, others, work, health, and citizenship.
    3. Builds connection to school through caring, engaging classroom 
and school practices. It uses diverse teaching methods to engage 
students in creating classroom and school atmospheres where caring, 
responsibility, and a commitment to learning thrive. It nurtures 
students' sense of emotional security and safety, and it strengthens 
relationships among students, teachers, other school personnel, and 
families.
    4. Provides developmentally and culturally appropriate instruction. 
It offers developmentally appropriate classroom instruction, including 
clearly specified learning objectives, for each grade level from 
preschool through high school. It also emphasizes culturally, 
sensitivity and respect for diversity.
    5. Helps schools coordinate and unify programs that are often 
fragmented. It offers schools a coherent, unifying framework to promote 
the positive social, emotional, and academic growth of all students. It 
coordinates school programs that promote positive behavior and youth 
development, problem prevention, health, character, service-learning, 
and citizenship.
    6. Enhances academic achievement by addressing the affective and 
social dimensions of teaching and learning. It teaches students social 
and emotional competencies that encourage classroom participation, 
positive interactions with teachers, and good study habits. It 
introduces engaging teaching and learning methods, such as problem 
solving approaches and cooperative learning, that motivates students to 
learn and to succeed academically.
    7. Involves families and communities as partners. It involves 
school staff, peers, parents, and community members in applying and 
modeling SEL-related skills and attitudes at school, at home, and in 
the community.
    8. Establishes organizational supports and aligns policies that 
foster success. It ensures high quality program implementation by 
addressing factors that determine long-term success or failures of 
school-based programs. These include leadership, active participation 
in program planning by everyone involved, adequate time and resources, 
and alignment with school, district, State, and Federal policies.
    9. Provides high-quality staff development and support. It offers 
well-planned professional development for all school personnel. This 
includes basic theoretical knowledge, modeling and practice of 
effective teaching methods, regular coaching, and constructive feedback 
from colleagues.
    10. Incorporates continuing evaluation and improvement. It begins 
with an assessment of school/district resources and needs to establish 
a good fit between the school's concerns and aspirations with the best 
evidence-based SEL programming approaches. It continues gathering 
implementation and student outcome data to assess progress, ensure 
accountability, and shape program improvement.

    In summary, quality SEL-based school reform efforts have three main 
components:

    Classroom.--Successful SEL-based school reform equips teachers to 
support and engage students in their classrooms using evidence-based 
SEL strategies. Teachers are able to teach school and life skills such 
as problem solving, stress management, and conflict resolution; are 
able to infuse the curriculum with core values such as respect for self 
and others, truth telling, and responsibility; are able to promote self 
awareness, empathy, and caring all in ways that are compatible with 
academic goals and which improve time-on-task and classroom discipline. 
These competencies are not only designed to improve classroom 
performance, but are also highly correlated with life and work success 
and engaged citizenship.
    Climate.--Successful SEL-based school reform programs also improve 
school climate and student connection to their schools and teachers. In 
recent years, school climate has become an increasingly important 
indicator of school effectiveness. The best evidence-based SEL programs 
help schools become sophisticated architects of a productive and 
trusting learning environment, providing tools and strategies to help 
teachers and administrators transform discipline practices and convey 
consistent messages of inclusion, respect for all children, safety, and 
service. Students are able to apply the social and emotional 
competencies they learn outside the classroom, becoming agents for 
positive change and full partners in the life of the school. Special 
Olympics activities are particularly focused on school climate change 
and present hopeful strategies for improvement.
    Community.--Successful SEL-based school reform efforts promote 
strategies that engage students in community activities, while also 
engaging parents and community leaders in the life of the school. 
Parents are routinely involved in planning and support roles and 
invited to reinforce learning and healthy development at home. Service 
activities, after school enrichment programs, and cooperative 
partnerships with community-based organizations become the norm. An 
atmosphere of openness fosters new relationships that integrate new 
resources into a coherent plan that support student success. Again, 
Special Olympics activities can help by offering children didactic 
lessons in human exceptionality while also connecting them to 
meaningful service learning opportunities in the community.
          research tells a hopeful story: success is possible
    Several decades of research, practice, and policy innovation now 
demonstrate that it is possible to promote the academic, social, and 
emotional growth of preschool through high school students and the 
adults who care for them. The research indicates the classroom and 
school-wide programming benefits are powerful. In a landmark study that 
will appear in Child Development next year, CASEL analyzed 213 school-
based SEL studies--with experimental and control groups--involving 
270,034 students, and found that students who experienced high-quality 
SEL programming benefited in multiple ways:

    <bullet> Improved attendance, enhanced social relationships, and 
stronger commitment to learning and healthy development;
    <bullet> Decreased negative behavior and emotional distress and 
more constructive classroom behavior;
    <bullet> Decreased aggressive behavior and substance use that can 
lead to school failure;
    <bullet> Standardized test scores 11 percentile points higher than 
the control group.

    This study also showed SEL can be effectively delivered by regular 
classroom teachers,\11\ meaning it can be brought to scale in the 
schools we have now.
---------------------------------------------------------------------------
    \11\ Durlak, J.A., Weissberg, R.P., Dymnicki, A.B., Taylor, R.D., & 
Schellinger, K.B. (in press). ``The Impact of Enhancing Students' 
Social and Emotional Learning: A Meta-analysis of School-based 
Universal Interventions.'' Child Development.
---------------------------------------------------------------------------
                         the policy opportunity
    There are many States and school districts that include the 
promotion of children's social and emotional skills as part of their 
student learning goals and standards. One State, Illinois, has adopted 
formal ``SEL Student Learning Standards'' which have helped educators 
address the fragmentation that plagues schools and sets a framework for 
an integrated, child-development driven, education policy. Similar to 
English-language arts and mathematics standards, the SEL standards 
highlight the social-emotional competencies that students should know 
and be able to do. The Illinois SEL standards and developmental 
benchmarks are organized around three learning goals: (1) Develop self-
awareness and self-management skills to achieve school and life 
success; (2) Use social awareness and interpersonal skills to establish 
and maintain positive relationships; and (3) Demonstrate decisionmaking 
skills and responsible behaviors in personal, school, and community 
contexts. Leaders within Illinois are now developing a regional model 
to support district-wide SEL in a cost-effective way across districts 
and schools. Similarly, in Alaska's Anchorage School District, 
comprehensive SEL Learning Standards have been adopted and teachers 
have developed innovative teaching strategies that integrate SEL 
instruction into academic subjects. Finally, Ohio's school climate 
guidelines now embrace SEL and the State is retooling its teacher 
preparation standards to include SEL. At the same time, the State PTA 
recently voted to put SEL at the top of its policy agenda.
                        moving forward with esea
    Without a cohesive national strategy to integrate the many 
dimensions of learning, many students will not get the help and support 
they need. Social and emotional learning offers a positive solution 
that has already benefited children in thousands of classrooms, schools 
and districts. Now, ESEA provides an opportunity to put this solution 
into the hands of more young people and schools. A practical first step 
would be incorporating the provisions of the Academic, Social, and 
Emotional Learning Act into ESEA.
    The Academic, Social, and Emotional Learning Act (H.R. 4223) was 
introduced with bipartisan support in December. The bill authorizes the 
Department of Education to address the substantial rise in demand for 
SEL and builds the long-term infrastructure to bring SEL to scale.

    <bullet> Reach More Children with Evidence-based Social and 
Emotional Learning. Award 5-year competitive grants for district or 
State SEL initiatives.
    <bullet> Rigorously Measure and Broadly Share Results. Conduct an 
independent evaluation of grantees to determine the program's impact on 
student achievement, attainment, and behavioral outcomes.
    <bullet> Build a National SEL Support System for Teachers, 
Administrators, School Districts, and States. Establish a national 
training and technical assistance center to provide high-quality 
information about research-based practices, professional development, 
and student assessment, and implementation tools.

    Thank you for the opportunity to speak with you today. I hope our 
brief moments together can help set the stage for a future ESEA that 
benefits all students in new and meaningful ways.

    The Chairman. Thank you very much, Mr. Shriver, for all 
your work, and I thank you for that great testimony.
    Now we turn to Dr. Yancey.
    Welcome, Dr. Yancey. You have had a long and distinguished 
career. We welcome you here. Please proceed.

STATEMENT OF ANTRONETTE (TONI) YANCEY, PROFESSOR, DEPARTMENT OF 
HEALTH SERVICES, USL SCHOOL OF PUBLIC HEALTH, AND CO-DIRECTOR, 
                       UCLA KAISER PERMA-
        NENTE CENTER FOR HEALTH EQUITY, LOS ANGELES, CA

    Ms. Yancey. Thank you very much, Senator Harkin and 
Senators Enzi and Franken, for this invitation.
    Physical activity and sedentary behavior are really 
important targets for disparities reduction, because the very 
diseases that are responsible for most of the chronic disease 
disparities--namely, heart disease, diabetes, hypertension and 
so forth--are, in fact, driven, in part, by physical 
inactivity.
    We have a real problem, as I'm sure most of us know, with 
the childhood obesity epidemic. Rates have not only increased 
across the board, but communities of color have been 
particularly burdened by this excess in obesity.
    Similarly, in lower-income communities and communities of 
color, obstacles to an active lifestyle are quite daunting. 
These neighborhoods have fewer recreational and fitness 
facilities. There are fewer gardens, there are fewer appealing 
vistas, like oceans and mountains and lakes. There are fewer 
pedestrian amenities, like sidewalks and pedestrian bridges and 
crosswalks. In fact, what we've created in many of these 
communities are activity deserts, and people are move-insecure, 
kind of like being food-insecure.
    One study that we recently published in the Milbank 
Quarterly demonstrated that in lower-income communities, and 
communities of color, the numbers of outdoor ads, particularly 
for health-compromising behaviors that promote sugary beverages 
and fast foods, are particularly high. Something that, to my 
knowledge, no one had documented before was that there are also 
way too many ads for television shows and video games and other 
sedentary-
promoting goods and services. There really are very few 
physical-activity-promoting ads in any community, but those 
that exist are mostly concentrated in the affluent communities.
    Now, my colleague Dr. Pate and I have served on a number of 
committees, and certainly activity-focused physical education 
is a prime opportunity, but there are so many barriers to it. 
In fact, a recent California audit showed that fewer than half 
of the schools were actually meeting the elementary school 
target of 200 minutes every 10 days. We, in fact, conducted a 
statewide survey looking at public schools and the actual 
activity during PE, because many of the policies that have been 
promoted focus on increasing the duration of physical activity. 
In fact, if you increase the duration without addressing the 
quality, you just get a lot more time sitting around. In fact, 
we found that, in the best schools, the most affluent schools, 
about 40 percent of the time is spent during PE in moderate to 
vigorous physical activity. In the less affluent schools, only 
about 14 percent of the time is spent in actual moving around, 
at least at a brisk-walk level.
    That's one particular place that we need to focus, in terms 
of quality. And in California there's actually a bill, AB 2705, 
that would require active physical education and active after-
school programs.
    I'd like to highlight a couple of programs that I'm 
involved in, in the State of California. One is the Healthy 
Eating Active Communities Program of the California Endowment. 
It's a statewide effort to mobilize collaboratives in six 
communities to really start to focus on the environments that 
surround children and that promote inactivity and poor eating, 
so that we can do something a little bit better. We've actually 
been involved in evaluating a portion of that project. The 
schools have done some pretty impressive things; they've 
actually lengthened PE periods, purchased new equipment, 
upgraded facilities and training, and taught teachers to 
deliver active PE. We still found that the schools that 
lengthened PE, most of them did not lengthen the amount of time 
kids spend in moderate to vigorous physical activity. So, 
that's still something that really needs to be addressed from a 
policy standpoint.
    In my last bit of time, I'd like to address one other 
project. This is something that we started when I was the 
director of Chronic Disease Prevention and Health Promotion for 
the Los Angeles County Health Department, and it's called 
Instant Recess. It's something that people can do anywhere, 
anytime, anyplace, in any attire, and it's been demonstrated 
that, in schools where they have these activity breaks, kids 
are more on task, they concentrate better, they have better 
grades, they have fewer visits to the nurse's office and to the 
vice principal's office for disciplinary problems. Also, in 
these schools, many times there are no PE specialists, so the 
other opportunities to increase activity are challenging.
    I brought you a copy of one of these Instant Recess breaks, 
that Dave Winfield of the San Diego Padres and ESPN actually 
worked on with us. We're working with the Los Angeles Sparks 
and other organizations to drive this out into the communities. 
There are also some healthier options in the ballpark menus 
that we've gotten them to adopt, including veggie-dogs and 
sweet pepper hummus with baked pita chips and grapes.
    Thank you, and I look forward to the discussion.
    [The prepared statement of Dr. Yancey follows:]
             Prepared Statement of Antronette (Toni) Yancey
                                summary
    Low-resource communities are plagued by poor health and low 
educational attainment. Physical activity and sedentary behavior are 
particularly important as targets achieving health equity, since 
physical activity is protective against a host of the most common 
chronic diseases. Obstacles to an active lifestyle are more daunting in 
underserved communities. Neighborhoods in these communities have fewer 
recreational and fitness facilities, parks, private or community 
gardens, appealing vistas, and pedestrian amenities. Not 
coincidentally, substandard schools are the norm in these 
neighborhoods, with overcrowding, crumbling infrastructures, and fewer 
highly trained teachers.
    I would like to highlight two promising projects in which I am 
involved in California to illustrate innovative approaches to school 
physical activity: Healthy Eating Active Communities (HEAC), and 
Instant Recess. The California Endowment-funded HEAC initiative 
emphasizes practical interventions with low start-up and maintenance 
costs accessible to low-resource communities. School intervention 
strategies included lengthening PE periods, purchasing new equipment, 
upgrading facilities and training teachers to deliver active, enjoyable 
PE. Smaller class size, conducting PE outdoors vs. indoors, and 
activities involving the majority of participants in running and 
walking were generally associated with higher activity levels. These 
findings underscore the priority of quality improvement policies to 
promote physical activity during PE. PE is worthy of further policy 
attention because it is the only activity program that can benefit 
essentially all students, usually on a daily basis.
    Instant Recess, a public-private partnership between UCLA, the 
State and county health department and professional sports, is an 
evidence-based approach to render prolonged sitting as socially 
unacceptable as smoking, or drinking and driving. The approach taps the 
many cultural assets available in communities of color such as 
collectivism, strong civic and religious institutions touching most 
community members, and the centrality of music, dance and sports 
traditions to culture expression. Instant Recess 10-minute activity 
breaks are simple, structured, low-impact and music-driven, with sports 
or ethnic dance-based moves, and disseminated by DVD or CD and photo 
guide for ease of use by lay audiences. Venues with captive audiences 
such as schools, youth programs, worksites, sports arenas are targeted 
to drive fitness-promoting cultural change. We recently completed a 
systematic review of 40 studies, including several from our research 
team, documenting the effectiveness of brief activity breaks in 
increasing physical activity and improving organizational outcomes such 
as worker productivity and student academic performance.
    Widespread societal change will be required to get America moving 
and arrest the growth of childhood obesity. I have identified several 
guiding principles that will be important in building the social norm 
change and political will for aggressive legislative change:

    1. Focus on decisionmakers governing high-exposure settings across 
sectors of society.
    2. Emphasize approaches tailored to the needs of sedentary 
populations to reduce health disparities and generate the greatest 
organizational and individual return on investment.
    3. Rely less on individual motivation, supportive cultural values, 
or widespread access to active leisure opportunities.
                                 ______
                                 
    Senator Harkin and members of the committee, thank you for this 
invitation. During the past 5 years, I have been pleased to serve on 
several Institute of Medicine Committees focused on childhood obesity 
prevention, and with Dr. Pate on the Physical Activity Guidelines 
Advisory Committee and National Physical Activity Plan Coordinating 
Committee. Last month I was honored by my appointment to the Board of 
Directors of the Partnership for a Healthier America, to work with 
Honorary Chair First Lady Michelle Obama in her campaign to end the 
childhood obesity epidemic.
    I have been engaged in research for the past 20 years on 
disparities in chronic disease risk and burden affecting 
socioeconomically marginalized communities, and in designing and 
testing feasible and effective interventions to achieve health equity. 
Physical activity and sedentary behavior are particularly important as 
targets for reducing health disparities and achieving health equity. 
Obesity and most diseases such as high blood pressure and diabetes for 
which physical activity is beneficial are more prevalent in communities 
of color. Physical activity levels in these communities are generally 
lower than those in the population at large, and disparities may be 
increasing.
    Obstacles to an active lifestyle are indeed more daunting in 
underserved communities. Neighborhoods in these communities have fewer 
recreational and fitness facilities, parks, private or community 
gardens, appealing vistas such as oceans or lakes, and pedestrian 
amenities like sidewalks and crosswalks. Proximity to activity-
promoting resources is important, because people are more likely to use 
nearby resources. Many poor neighborhoods are, in fact, ``activity 
deserts''--unsafe, dirty, and poorly lit and maintained. There is more 
stress-inducing noise, traffic congestion, and information overload 
from outdoor ads, including those promoting products associated with 
sedentary behaviors like films, TV shows, and autos. Few ads, such as 
for sporting equipment or fitness clubs, promote physical activity in 
any community--a scant 1 percent according to our recent study. Not 
coincidentally, substandard schools are the norm in these 
neighborhoods, with overcrowding, crumbling infrastructures, and fewer 
highly trained teachers, including PE specialists, resulting in lower 
levels of academic achievement and persistence.
    Activity-focused physical education (PE) represents an effective, 
evidence-based method of improving physical activity and fitness. 
Increasing PE and recess duration and frequency have been primary 
policy targets for arresting youth obesity. Yet, research, State-level 
legislative policy changes and authoritative recommendations have not 
produced substantive improvements. Existing requirements in most States 
are poorly supported and enforced as a result of competing priorities 
for fiscal, scheduling and spatial resources, in part due to 
legislative pressure emphasizing standardized test scores as the 
yardstick of school performance. For example, a California Department 
of Education PE audit found that fewer than half of school districts 
met the mandated elementary school PE requirement of 200 minutes per 10 
days. UCLA, in collaboration with Samuels and Associates, studied a 
random sample of public school districts throughout the State. We found 
that the average percentage of time in PE that kids were at least 
moderately active was only 26 percent, ranging from 14 percent in low-
resource schools scoring low on fitness tests to 40 percent in the 
high-fitness-scoring, higher resource schools. The proportion of active 
time in PE was positively associated with standardized test scores, in 
both higher and lower resource schools. Thus, ensuring that school PE 
is active could improve both academic performance and health.
    There are promising ways of increasing physical activity in school 
and after-school settings to augment PE. In a recent University of 
Kansas study, for example, integrating brief activity-focused lessons 
into the academic curriculum not only increased elementary school 
children's physical activity, in and outside of school, but also 
improved academic performance across several content areas. Those 
intervention schools that added at least 75 minutes per week in active 
lessons significantly slowed the weight gain observed in the control 
schools. Institution of after-school program guidelines recommending 
certain types and amounts of physical activity are also emerging from 
State departments of education and health. I want to call to your 
attention to bill AB 2705 in California that would require that PE and 
after-school programs be active.
    I would like to highlight two promising projects in which I am 
involved in California to illustrate innovative approaches to school 
physical activity: Healthy Eating Active Communities (HEAC), and 
Instant Recess. The California Endowment-funded HEAC initiative 
emphasizes practical interventions with low start-up and maintenance 
costs accessible to low-resource communities. School intervention 
strategies included lengthening PE periods, purchasing new equipment, 
upgrading facilities and training teachers to deliver active, enjoyable 
PE. Smaller class size, conducting PE outdoors vs. indoors, and 
activities involving the majority of participants in running and 
walking were generally associated with higher activity levels. These 
findings underscore the priority of quality improvement policies to 
promote physical activity during PE. PE is worthy of further policy 
attention because it is the only activity program that can benefit 
essentially all students, usually on a daily basis.
    Instant Recess, a public-private partnership between UCLA, the 
State and county health department and professional sports, is an 
evidence-based approach to render prolonged sitting as socially 
unacceptable as smoking, or drinking and driving. The approach taps the 
many cultural assets available in communities of color such as 
collectivism, strong civic and religious institutions touching most 
community members, and the centrality of music, dance and sports 
traditions to culture expression. Instant Recess 10-minute activity 
breaks are simple, structured, low-impact and music-driven, with sports 
or ethnic dance-based moves, and disseminated by DVD or CD and photo 
guide for ease of use by lay audiences. Venues with captive audiences 
such as schools, youth programs, worksites, sports arenas are targeted 
to drive fitness-promoting cultural change. The approach has been 
adopted by the San Diego Padres, the Los Angeles Sparks, school 
districts and worksites throughout California, in Winston-Salem, NC and 
in Washington, DC, the latter supported by daily Pacifica radio 
broadcasts of the breaks. We recently completed a systematic review of 
40 studies, including several from our research team, documenting the 
effectiveness of brief activity breaks in increasing physical activity 
and improving organizational outcomes such as worker productivity and 
student academic performance.
    Widespread societal change will be required to get America moving 
and arrest the growth of childhood obesity. In the course of my 
research, and my experience in the practice of medicine and heading a 
health department, I have identified several priorities that will be 
important in building the social norm change and political will for 
aggressive legislative change:

    1. Focus on decisionmakers governing high-exposure settings--one 
employer, politician, or school principal or board member can influence 
the social and cultural environments of hundreds or thousands of people 
for years at a time.
    2. Emphasize approaches tailored to the needs of sedentary 
population subgroups to reduce health disparities. Helping at-risk 
communities be more active should generate the greatest organizational 
and individual return on investment.
    3. Rely less on individual motivation, supportive cultural values, 
or widespread access to active leisure opportunities. Telling 
individuals to ``just do it'' cannot work when many Americans live in 
activity deserts and PE and recess have been taken out of schools.

    We have a great deal of evidence about how to make our schools and 
communities more activity-friendly for children and adults. With 
physical inactivity being the fourth leading cause of death and 
childhood obesity continuing to rise, all sectors of society need to 
take action to get Americans moving.
    Thank you.

    The Chairman. Dr. Yancey, thank you very much. I want to 
know more about Instant Recess and the 10-minute breaks.
    Dr. Levin, welcome, and please proceed.

   STATEMENT OF BARBARA LEVIN, MPH, MD, CEO, CHOTA COMMUNITY 
               HEALTH SERVICES, MADISONVILLE, TN

    Dr. Levin. Good afternoon. I'd like to thank you, Chairman 
Harkin and Ranking Member Enzi, Senator Franken, and my home 
Senator, Lamar Alexander.
    I'm honored to be asked to speak with you today as a 
representative of Chota Community Health Services, a federally 
qualified community health center operating a school-based 
clinic in Monroe County, which is a rural Appalachian community 
in east Tennessee. I'm excited about sharing with you the 
achievements of this 10-year program, which has impacted the 
lives of thousands of children and their family.
    This is a homegrown project that works and can be 
reproduced throughout the country. The school-based clinic is 
both a basis for healthcare as well as a launching point for 
some of the other things about nutrition and wellness that we 
know are so important.
    As a public-health physician, I believe that school health 
is the most effective way to put prevention to work for our 
communities' children. We know that healthy students learn 
better. Healthcare in the schools represents a win-win 
situation. The success of this project comes from a well-
developed team of healthcare providers, school officials, 
county agencies, and third-party payers.
    Let me introduce myself and two members of my team. I came 
to this community in 1979 as a National Health Service Corps 
volunteer.
    Sonia Hardin, sitting behind me, is a nurse, and in 1989 
she was the only school nurse for the entire county. With the 
help of grants and supportive school administration, we now 
have school nurses in all the county schools, and nurse 
practitioners in eight of those schools. We also have a full-
scale mental health program with psychiatric social workers.
    Laura Harris, sitting next to Ms. Hardin, was hired as a 
school clinic administrator in 2000, and it's her careful 
management of the grant and reimbursement dollars which has 
transformed a 3-year project into an ongoing entity partially 
funded by grant moneys from Chota Community Health Services.
    The health needs of our students are extensive: lack of 
access to primary care and dental services, limited mental 
health services, and insufficient health education. My message 
today is one of success and challenge. To meet these identified 
needs, we began a program for sports physical and dental 
screenings before we knew from where the funding would come.
    Then, in 2000, the successful Rural Health Outreach 
application made the dream of a school-based clinic a reality. 
The first site was in a community 35 miles from the closest 
hospital. There was not a physician in town. Children who were 
ill traveled for care, and frequently to an emergency room at 
night because their parents work during the day.
    Throughout the 10 years, we've built on this plan. Today, 
our school-based services provide care for 5,600 students, 
everything from injury evaluation to catheterization, as well 
as acute and chronic care. Last year, there were 46,000 visits 
in our program. Beyond the numbers, this program is successful 
in bringing individual care to our students. The impact on 
physical and mental health has been tremendous.
    Through the school-based clinic, our providers have 
diagnosed appendicitis, hepatitis, a brain tumor, diabetes, 
hypertension, social-anxiety disorder, just to name a few. 
We've educated parents not to use ``old timey'' remedies. We've 
treated MRSA, strep outbreaks, and acute asthma, all to keep 
students out of emergency rooms. In addition, we focused on 
these preventive services including well-child care and sports 
physicals.
    In partnership with our educators, we provided in-class 
instruction for nutrition, tobacco prevention and cessation, 
anti-bullying programs, and, of course, physical education.
    Working with the county, a dental health program has been 
put into place. The program actually picks students up at the 
school, provides needed preventive and restorative services, 
and then returns them to class.
    One of our greatest challenges is the obesity epidemic, a 
national crisis. In Monroe County, only one-half of our 
students maintain a healthy weight. Many environmental changes 
were made in the last 5 years; and, while we have more obese 
children entering kindergarten, we've at least stabilized the 
trend once they enter school, and have increased community 
awareness of this issue.
    One story of individual success is about Billy, a high 
school student whose distraught mother sought medical care for 
his early hypertension. The problem was his weight, 285 pounds 
at age 14. The doctor collaborated with the schools and Billy 
began meeting with the school nurse. He lost 20 pounds and his 
blood pressure went down. Billy learned lifelong lessons about 
weight management and exercise. Adding physical health and 
emotional support services are essential to a student's success 
in school. Educating the whole child requires the whole 
community. Monroe County brings the community into the school 
as a resource. The lessons learned from our experience is that 
serving children in school is not only efficient, but highly 
successful. To change the status of America's health, we must 
focus on our children. What is at stake here is actually the 
future of our country.
    Thank you for your time, and I'm happy to answer any 
questions.
    [The prepared statement of Dr. Levin follows:]
              Prepared Statement of Barbara Levin, MPH, MD
    I am grateful for this opportunity to submit written testimony on 
behalf of Chota Community Health Services, a federally qualified 
community health center in Monroe County, TN that operates school-based 
health centers (SBHCs). SBHCs ensure that 1.7 million children and 
adolescents across the country gain access to comprehensive medical 
care, mental health services, preventive care, social services, and 
youth development. These services are provided without concern for 
students' ability to pay in a location that meets children and 
adolescents where they are: at school.
    First, I would like to thank the Senate Health, Education, Labor, 
and Pensions Committee for their tireless work on ensuring that school-
based health centers were included in the Patient Protection and 
Affordable Care Act.
    In addition, I would like to thank Chairman Harkin, Ranking Member 
Enzi, members of the committee, and in particular Senator Alexander's 
office and the Tennessee Primary Care Association for the opportunity 
to share with you the achievements of a 10-year-old school-based health 
care program, which has impacted the lives of thousands of children and 
their families in Monroe County, a rural Appalachian community in east 
Tennessee. It is exciting to able to talk with you about a homegrown 
project that works, and can be reproduced throughout the country. As a 
public health physician, I have found the school program to be the most 
effective way to put prevention to work for our community's children. 
The success of this project comes from the well-developed team of 
health care providers, school officials, county agencies, and third 
party payers, who work closely together to assure the positive health 
status of each child.
    To begin, let me introduce myself and two members of the team. I am 
a family physician, working in this community since 1979. I have 
medical training from the University of California, San Francisco, a 
public health degree from the University of Texas at Houston, and a 
residency in Family and Community Medicine from the University of 
Missouri Columbia, where I was trained to be a rural physician.
    Sonia Hardin, sitting behind me, is a RN who was raised in Monroe 
County and has a bachelor's degree from the University of Tennessee, 
and is working on her master's in school administration. She worked 
with me at the Monroe County Health Department, and left to join the 
school health program in 1989. At the time she was the only school 
nurse for over 4,800 school children. Working together with the help of 
grants and a supportive school administration, we now have school 
nurses in each of the 12 county schools and school-based clinics 
staffed by nurse practitioners in 8 of those schools. There is also a 
full-scale mental health program with psychiatric social workers seeing 
students for needed emotional health concerns.
    Laura Harris, sitting next to Ms. Hardin, grew up in Tellico Plains 
Tennessee and has a degree in non-profit health administration from the 
University of Tennessee Chattanooga. In 2000, she was hired as the 
school clinic administrator for the new School-based Clinic Grant. It 
is her careful management of grant and reimbursement dollars which grew 
a 3-year Rural Health Outreach grant into an ongoing project, which is 
partially funded at present by monies from Chota Community Health 
Center's Federal HRSA 330 Grant. General school health service is a 
$400,000 line in the Monroe County School System budget. Chota 
Community Health Services contributes about $200,000 from the Federal 
330 grant monies of $650,000. An additional $150,000 was earned last 
year through patient care revenues. This budget covers all school 
nurses as well as the school-based clinics as well as other school 
health programs, such as the Coordinated School Health Program. Chota 
Community Health Services provides 3.4 FTE nursing personnel, 5 days of 
nurse practitioner time, a medical director, and the equivalent of one 
licensed clinical social worker.
    When the school health services were beginning in 1992, the 
extensive needs were clear:

    <bullet> Children often were without access to primary medical and 
dental care.
    <bullet> While there was a shortage of medical personnel, the 
shortage of mental health providers was critical.
    <bullet> Health education for children and their families was 
woefully insufficient.

    Many of these problems were clear from the county's description; 
Monroe County was an ``at-risk'' unit as described by the Appalachian 
Regional Commission. With a chronic need for health care providers, 
Monroe County continues to be a manpower shortage area. With economic 
figures that vary from concerning to terrible, the County continues to 
meet a number of socio-educational challenges. Only 10.8 percent of the 
population has a degree above high school; 27.6 percent of the adult 
population is functionally illiterate. The school free and reduced 
lunch data for February 2010 was 72.8 percent. This is in a county in 
which the unemployment rate has gone from 7.2 percent in September 2008 
to over 20 percent in May 2009. The rate is now stabilizing at near 16 
percent.
    Initially, Sonia was able to identify specific financial resources 
to meet some of these challenges. This is the mixed message of success 
and challenges, which I will present today. Monroe County's School 
Health Program has made a positive impact on our community and we are 
financially stable; but we have been frugal, innovative, and lucky. 
Hopefully, the funding streams which you in the Senate are considering 
will make this type of development much easier. The lack of clear 
Federal CMS guidelines for billing for school-based services limits the 
development of such programs. Fifty percent of funding is constantly 
being sought through grant funding.
    Without clear funding, we began a program for sports physicals, and 
dental screenings. An advisory group of local health care providers was 
formed to work with the School Board on addressing these concerns. When 
an application for Rural Health Outreach grant dollars was accepted in 
2000, the dream of a school-based clinic, staffed with nurse 
practitioners to provide primary care became a reality, and we were on 
our way.
    The original site was Tellico Plains, a community of 4,500, in the 
Tellico Plains Mountains, 35 miles to the closest emergency room. 
Initially, there was not a physician in the community. Children who 
were ill had to travel for such care; and frequently showed up in an 
emergency room at night because their parents were working and unable 
to take them earlier. (One of the original evaluation measures for this 
grant was a decrease in the utilization of the emergency room by 
school-aged children for non-emergency care.) While prescriptions were 
written for necessary medications, some medicines were provided on site 
to start a child's recovery as soon as possible. The original plan 
included mental health coverage and outreach workers. Many of these 
children were uninsured, which created greater havoc in accessing 
resources for them.
    Through the 10 years, we have built on this plan. The school-based 
services provide daily health supervision for 5,600 students as well as 
acute and chronic care. The clinics also provide services for the 
Monroe County school staff and their immediate families. We now have 
eight school-based clinics, with school nurses in each county school. 
In 2008-2009, there were 39,000 visits with school nurses and 2,800 
billable visits with nurse practitioners. Last year, there were six 
mental health providers (licensed clinical social workers) who provided 
care to over 300 children in a total of 3,800 visits this school year 
alone. In the current year, this component of the program has grown 
with more than 170-plus intakes for behavioral health services, and 
3,619 one-on-one counseling sessions from August through March. The 
increase in mental health services can be attributed to many factors, 
including the positive impact of these services as well as the economic 
challenges facing the community at the present time.
    In the past, mental health concerns have often been glossed over 
and under-diagnosed in this community. For example, the first year of 
the rural health outreach grant, a teacher approached the behavioral 
health counselor, and said she was concerned about a child in first 
grade who rarely spoke to anyone all year. The child did not talk to 
the teacher, the other students, or anyone at school. The same thing 
had occurred the year before while this student was in kindergarten. 
The teacher knew the child was learning well, completing assignments, 
and followed directions well. The teacher was just concerned because 
this student spoke to no one.
    The Licensed Clinical Social Worker followed up with the parent for 
a meeting and an intake for family history, etc. The mother stated this 
child was always ``like that'' and did not think anything of it. The 
counselor referred the student for a medical evaluation and medications 
for social anxiety disorder were prescribed. Within a week, the child 
was talking with other children in her room and interacting with the 
faculty and staff. The story clearly demonstrated one factor in this 
child's lack of treatment was the failure of anyone to realize that 
there was a problem. Without the clinical services consultation, this 
child might have continued through school without any social 
interactions.
    Behavioral health addresses children of divorce, grief, physical 
and sexual abuse, bullying, alcohol and drug abuse, and teen pregnancy.

    <bullet> One child being currently seen had had problems at school 
and was failing all classes and was in the principal's office weekly 
for discipline problems. After receiving counseling services working on 
anger management, the child is now passing all classes and is rarely in 
the principal's office. He is being promoted to the eighth grade 
because of the improvements in his grades.
    <bullet> Another child was home-schooled because of anxiety and 
difficulty adjusting in the school setting. The child returned to 
school and entered counseling to see if the issues would improve. The 
child is now passing all classes, and he has no unexcused attendance! 
The mother attributes this success to the individual counseling 
sessions she receives in the school setting.
    <bullet> An angry student whose family was going through divorce 
was fighting all the time, and received counseling for anger management 
and issues of divorce. This child is no longer experiencing problems 
with fighting.
    <bullet> Another child, whose parents are in drug rehab, is living 
with grandparents, and has been belligerent to family, school faculty 
and friends. With counseling, his grades and behavior have improved.

    The impact on the physical health of the children has been as 
great. Through the school-based clinic, our providers have diagnosed 
appendicitis, hepatitis, a fatal brain tumor, diabetes, and 
hypertension in middle and high school children, to name a few. We have 
educated parents to treat ear infections, and not to use old timey 
remedies such as urine in the ear. We have controlled and treated MRSA 
and strep outbreaks, immunized children and obtained treatment for 
numerous acute diseases such as conjunctivitis, otitis media, urine 
infections, and acute asthma episodes--all to keep children out of the 
emergency room.
    In addition, the school-based system is focused on preventive 
services--primary, secondary, and tertiary prevention. This year we 
project that over 500 well-child physicals will have occurred during 
school hours with an additional 250 sports physicals. One high school 
student, who had not had a visit in a medical office since his 
kindergarten entrance exam, was recently seen for a sports physical.
    All children with asthma and diabetes have individual action plans. 
These numbers should not obscure the fact that this program is 
successful, individual by individual. The child with an acute care 
problem which is quickly resolved so he/she can return to class is as 
important to us as the one with chronic health care needs which require 
daily interventions. Managing and educating children on diabetes 
management about how to give their insulin injections and how to count 
carbohydrates, is a normal daily activity for one of our school nurses.
    Working with the County, a dental health program has been in place 
since 1986. This program actually picks children up at school, provides 
needed preventive and restorative services, and returns them to class. 
All preschool and kindergarten children in the county are screened for 
dental health needs.
    One of greatest challenges is the obesity epidemic which is 
impacting Monroe County as well as the body mass index (BMI's) on all 
children annually. Initially in 2002-2003, 51.6 percent of the 5,000 
students had normal body weight, while 46.3 percent were found either 
to be obese or at risk of obesity. We have instituted a number of 
environmental changes, including changing the cafeteria food options, 
altering school rewards to deemphasize food, and removing soda machines 
from the primary schools. We have monitored a measurable difference 
with these interventions, which focus on dietary changes, increased 
physical exercise, and health education. Over the last 7 years, the 
figures for children with healthy weights have decreased from 54.4 
percent to 52.1 percent in 2009-2010. This remains a critical issue for 
the combined school-based clinical and coordinated school staff.
    The most heart warming are the stories of individual success: 
Billy, a high school student was brought to his family doctor by his 
distraught mother to deal with early hypertension. The basis of this 
problem was his weight; he weighted 285+ pounds at age 14. The doctor 
collaborated with the school system, and Billy began a program of 
meeting a few minutes each week with his school nurse. He lost more 
than 20 pounds by the end of the school year, and his blood pressure 
went down. The additional exercise he was getting helped both problems; 
he learned some life long skills about weight management and health 
from this experience.
    At the end of the original 3-year Federal Rural Health Outreach 
grant, the evaluation showed that we had impacted school attendance, 
and particularly teacher attendance. How does one measure all the 
impact of such a program? Studies suggest that adding various physical 
health, social, recreational, and emotional support services are 
essential to children's success in school. Nearly a century of research 
has come to one conclusion: children develop along multiple, 
interconnected domains and when one developmental domain is ignored, 
other domains may suffer (Brainerd).
    Monroe County has integrated the Centers for Disease Control 
Coordinated School Health Model to address such non-academic barriers 
to success. Through this model the basic physical, mental, social, and 
emotional health needs of young people and their families are 
recognized and addressed. In addition, community engagement, together 
with school efforts, promotes a school climate that is safe, 
supportive, and respectful. Educating the whole child requires the 
whole community. Monroe County brings the community into the school and 
has the school see the community as a resource. Strong community 
partnerships developed through the Coordinated School Health Model are 
interweaving their resources into the school setting.
    The lessons learned from the Monroe County experience is that 
serving children in their natural habitat is not only efficient, but 
highly successful. As one famous criminal reportedly said, ``Why do you 
rob banks, because that is where the money is!'' Success with changing 
the health status of America must focus on our children. While families 
can not remove themselves from this responsibility, there must be an 
active partnership between the child, his/her family, the school and 
the community to assure the appropriate utilization of services and 
positive outcomes.
    What is at stake here is nothing less than the future health of our 
country.

    The Chairman. Thank you, Dr. Levin.
    Now we'll close up with Beth Kirkpatrick, who's also had a 
long and distinguished career in this field.
    Ms. Kirkpatrick. Thank you.
    The Chairman. Welcome.

   STATEMENT OF BETH KIRKPATRICK, CO-DIRECTOR, GRUNDY CENTER 
               PE4LIFE ACADEMY, GRUNDY CENTER, IA

    Ms. Kirkpatrick. Thank you so much, Senator Harkin.
    I'm very, very much appreciative to be here Senator Harkin, 
Senator Enzi, and Senator Franken.
    One of the great things about living in Iowa is that our 
representation is fantastic.
    Senator Tom Harkin, I can't imagine anybody better to head 
up this committee, so we appreciate that.
    [Laughter.]
    In fact, when you look at this, Health, Education, Labor, 
and Pensions, it doesn't look like it even goes together. In 
this generation, as a third of these kids are going to be 
disabled by age 50, they will no longer be able to pay into the 
pensions, they won't be able to pay into portions of the 
healthcare industry. It will take another 5 percent of our 
population to care for this generation when they're 50 years 
old. So, this does all work together.
    I'm from the farm. My parents were farmers, my grandparents 
were farmers. When something doesn't work, you don't keep doing 
it. Now, I'm a very practical individual. When I started 
teaching physical education and the sports-skill model was 
utterly failing, only 10 percent of my kids and my students in 
my classes were actually being moderate to vigorous. We weren't 
using the technologies that were invented for the field. Doing 
a heart-rate monitor test or a cardiovascular test without a 
heart-rate monitor was shocking. I was using Third World 
technologies, a stop watch, to test 65 kids at a time with a 
cardio test, where I knew that the obese child would fail, that 
the kid who has asthma would fail, that the kid who is being 
left behind would be in a vulnerable position for exercise 
abuse.
    So, in my mind, the revolution had to start. And I think 
when you look at what happens, and when you really have a true 
revolution, you fix what's wrong in your own school. I've lived 
in Grundy Center for 35 years; live in the same house with the 
same husband. We've gotten a project going on there. What we 
believe is that we need all 2,500 people to get on board. When 
our daily physical education program was failing, we realized 
we had to go after everybody in the community.
    What we did was modernize. We took technologies that were 
invented. We took heart-rate monitors. We put them on every 
kid. We downloaded. It takes Rick Schupbach--I think, the best 
teacher in America--it takes him 15 minutes a week to download 
all of the heart-rate data from every class, from every kid, 
from the entire elementary or the entire high school. We then 
used the same facilities that--we ended up taking the wrestling 
room from the wrestlers, we have them wrestle in the elementary 
gym--we took the room, filled it with fabulous equipment, got 
some grants, went after some things. We opened up the doors 
from 4:30 a.m. until 8 a.m., and from 3:30 p.m. until 8 p.m., 
so that we could go after the parents and community members. 
It's one thing to say we want to fix the kids, but, actually, 
by fixing the kids--and our motto is ``not our kids''--we will 
not let our kids go into life in an unhealthy way.
    This energy that we've taken with the community coming in, 
we didn't know if we could even get those parents to come in 
and use our facilities. We had to have Healthy Living seminars. 
Once every 3 weeks, we had to do free fitness testing. We do a 
body-age assessment. We had to look at lifestyle indicators 
beyond functional fitness. I could never understand why would 
we continue to do a pull up test, which is all-or-none, when 8 
out of 10 kids can't do a single pull up. There are other ways 
to measure, other things to measure. Weak arms are not a risk 
factor for any major or minor disease.
    What we looked at was blood pressure. We looked at 
electromyo-
grams to assess stress. We have 11 million kids who are on 
anti-
depressants. We have to look at the things that matter.
    What our program has been about is going after everybody. 
We put heart-rate monitors in the day in the life of 700 people 
in our community. We got kids to volunteer their parents to 
come in. It's one-on-one consultation. By putting on the heart-
rate monitor and letting the parents see what they were doing 
all through the day, and putting these printouts up on the wall 
of our gymnasium, as Senator Harkin has seen, you walk in and 
you see hundreds of heart-rate printouts that show, shockingly, 
not one person was anything other than sedentary. The reason 
obesity has tripled in the last 10 years is because we have an 
entire sedentary population, which stunned and shocked us.
    It's also true that if you put the heart-rate monitor in 
the day in the life of a kid in school when they don't have 
physical education, you have a sedentary child. This is the 
thing that would concern anyone who sees this. I believe that 
the lack of modernization in a profession that belongs as a 
preventive arm of the healthcare industry has been left aside. 
We have people talking about what's going on in physical 
education. We have a modern approach. We use classical music. 
We use overhead projectors that are built into the ceiling to 
shoot our concepts onto the wall. And what we have is a 
movement.
    We have people who believe in what we're doing. What we've 
had is, we've lifted up the entire student body. Our academics 
scores have increased when we increased physical education. We 
believe that we want a whole child, we want energy, and we want 
people to go into our society that feel good about themselves 
that come out with lifestyle prescriptions.
    Our kids our filling out seven different lifestyle 
prescriptions, starting in fourth grade; so, by the time they 
get to be a senior, they have backup plans. If their lives 
aren't going the way they want, they've got plan B, plan C, 
plan D.
    We believe that suicide is an awful, awful thing to have as 
a No. 1 cause of death from ages 15 to 25. We're out there. And 
we believe that the change and the implementation of these 
strategies is what physical education should be all about.
    [Applause.]
    [The prepared statement of Ms. Kirkpatrick follows:]
                 Prepared Statement of Beth Kirkpatrick
                                summary
    Lifestyle illness and chronic diseases that begin in childhood and 
result in early death and early disabilities are changing the dynamics 
of our society. Lifetime illnesses will require lifetime investments 
and a ``Rethinking, Retooling, and Retraining'' of our physical 
education professionals. My pioneering efforts introducing EKG accurate 
and downloadable Heart Rate monitors to our students more than 25 years 
ago, has led to the documentation and visual evidence of what is 
working with our students and what is working with our curriculum and 
class format design.
    The ability to retrieve quantitative data from every student in 
every physical education class and athletic practice has provided us 
with a vision and a change in focus for our program. Physical Education 
must reach outside the walls of the gymnasium and specific strategies 
to accomplish that are in place. Old fashioned fitness testing has been 
replaced with lifestyle assessments that include health risk 
appraisals, blood pressure, stress assessments, and full heart rate 
information in the new Cardio Testing Protocol for students that 
includes the visual portrait of the cardio testing. The information 
from this revolutionary testing protocol includes documentation that is 
sent to student record automatically, with the time and more 
importantly, with the heart rate results of pre-exercise heart rate, 
heart rate throughout the cardio testing, and recovery heart rate from 
this known intensity during the cardio testing.
    Revolutionizing our approach, changing our fitness tests to 
lifestyle assessments that provide us with lifestyle indicators for 
present or future health problems, using heart rate intensities during 
physical education class with continuous feedback that gives all 
children the permission to adjust intensity throughout class and 
throughout all cardio fitness testing, and the information that wearing 
a heart rate monitor throughout the day and night, now provides us with 
a clear picture of each student's lifestyle issues. Our physical 
education program includes reaching the entire community through 
specific strategies of lifestyle assessments that are offered free to 
all community members, membership in a fitness center situated inside 
the high school fitness center, healthy living seminars each month for 
our community, and using a lifestyle curriculum STAR TECH PE.
    This change in focus, change in class format, change in assessment, 
change in our tools from the past to the technologies of the future, 
and change in our scope of students that now include their parents as 
well as the full community, has given us an evolution over the past 20 
years that now is providing us with a clear vision for the future.
                                 ______
                                 
    I am pleased to be invited to speak about the academic and non-
academic benefits of physical education and to discuss ways schools can 
integrate comprehensive and high-quality physical education into the 
curriculum and daily school routines. Special thanks go to Senator Tom 
Harkin and Senator Mike Enzi for their dedicated efforts to help 
children achieve the potential that is theirs through an active and 
healthy life. As documenting evidence, I want to include particularly 
significant findings from 22 separate documents, each of which either 
demonstrates the health status of children in America and the alarming 
trends associated with the data, or which provide support to the role 
of Physical Education programs in the schools to be part of an 
effective intervention to treat and especially to prevent these 
``Lifestyle Diseases'' that are endemic to our society.
    In the past few years, we have seen large population studies that 
demonstrate the contributions of physical activity to the prevention of 
obesity and its relating effects, and to the contributions of quality 
physical education programs to not only the preventive health measures, 
but also to school attendance, academic achievement, and improvement in 
student behavior.
    The California Study and the recent Texas study provide data on 
millions of school children that show a direct and positive 
relationship between physical fitness achievement in quality physical 
education programs and academic achievement as measured by standardized 
test scores. Our research in the rural population of Grundy Center, IA, 
has also shown very similar findings within our student population.
    Significant in all of the studies completed to date were findings 
highlighted in documents below, demonstrating that reducing time in 
academic subjects to allow for increased time in physical education did 
not reduce academic achievement, and that allowing time in the school 
day for quality physical education programs and other physical activity 
demonstrated an improvement in academic achievement. Coupled with the 
reduced health care costs to be faced by obese children who become 
obese adults, providing for a program that also boosts academic 
achievement seems to be an investment in the children of this Nation 
that will provide nothing but benefits.

    1. In looking at the CDC's At-A-Glance, the chart on p. 4 and the 
graph on p. 5 indicate declining activity levels among young people. On 
p. 5, the first Idea for Improvement states, ``Well-designed programs 
in schools to increase physical activity in physical education classes 
have been shown to be effective.''
    2. Perhaps the most powerful evidence is found in the American 
Heart Association's article found in the medical journal Circulation. 
Specifically, attention should be drawn to PP. 1216-1217, the section 
entitled Evidence: Physical Activity During the School Day and on p. 
1220, Policy and Practice Recommendations 1, 2, and especially, 4.
    3. In their 2006 Report on National Health Priorities: Reducing 
Obesity, Heart Disease, Cancer, Diabetes and Other Diet- and 
Inactivity-Related Diseases, Costs and Disabilities, the National 
Alliance for Nutrition and Activity (NANA) found that two-thirds of 
premature deaths in the United States are due to poor nutrition, 
physical inactivity and tobacco use. Also, over the past 25 years, 
obesity rates have doubled among U.S. adults and tripled in children 
and teens. Diet and inactivity are cross-cutting risk factors, 
contributing significantly to four out of the six leading causes of 
death (i.e., heart disease, cancer, stroke, and diabetes. The report 
also states that, according to the U.S. Department of Agriculture, 
healthier diets could prevent at least $71 billion per year in medical 
costs, lost productivity, and lost lives. The Centers for Disease 
Control and Prevention (CDC) estimates that if all physically inactive 
Americans became active, we would save $77 billion in annual medical 
costs.
    4. In matters of school policy, the issue of Governance and 
Leadership, from the American Association of School Administrators, was 
distributed to EVERY school superintendent in the United States during 
the past year as a part of Healthy Living News. Also addressed in this 
document are factors related to funding.
    5. In Active Education, a summary from the Robert Wood Johnson 
Foundation, each of the bold-faced, highlighted statements are drawn 
from a strong collection of extensive research relating to physical 
activity and academic achievement.
    6. In the Journal of Exercise Physiology study, the California 
Study examining the relationship between physical fitness achievement 
and academic performance, among 884,715 students, demonstrates a direct 
and powerful relationship between these variables. See especially the 
chart on p. 16 and related results.
    7. A reprint from the December 2007 issue of State Legislatures, 
entitled, PE Makes a Comeback, highlights a series of findings that 
have shown in State legislation in States around the country, and the 
effects these are beginning to see. On p. 1, Senator Jane Nelson of 
Texas States, ``There's mounting evidence that physical activity not 
only reduces the risk of chronic diseases, it also helps academic 
performance.''
    The Following Articles Relate Specifically to Issues for QUALITY 
PROGRAMS:
    8. Ken Cooper, M.D., was the first cardiologist for NASA, and 
worked directly with each of the Mercury, Gemini, and Apollo 
astronauts. In addition, he founded the Center for Aerobic Research and 
the Cooper Clinic in Dallas, and served for many years as the team 
physician for the Dallas Cowboys football team. Being a close and 
consistent supporter of quality physical education programs, his 
statement on the New Emphasis should be a clarion-call for all to 
follow.
    9. In the articles, Exercise Seen as Priming Pump for Students' 
Academic Strides, Dr. John J. Ratey, a clinical associate of psychiatry 
at Harvard Medical School refers to exercise as the ``Miracle Gro'' for 
the brain. Specifically, he states that ``exercise prompts the brain to 
produce greater amounts of a protein called brain-derived neurotrophin 
factor, or BDNF, which Dr. Ratey likes to call ``Miracle Gro'' for the 
brain . . . Other research also suggest that exercise plays a role in 
neurogenesis, the production of new brain cells . . . '' This article 
describes the Physical Education program in Naperville, IL, supported 
as one of the PE4Life Centers, an exemplary program that provides 
documenting evidence of the effectiveness of the lifestyle changes that 
occur.*
---------------------------------------------------------------------------
    * For a complete description of his findings, refer to Ratey's book 
entitled: SPARK: The Revolutionary New Science of Exercise and the 
Brain.
---------------------------------------------------------------------------
    There is a Case Study in this book that describes the Physical 
Education Program at Naperville Central High School in Illinois. Based 
on a strong fitness-based and social skills-enhancing Physical 
Education Curriculum, students at Naperville Central H.S. recently was 
ranked #1 in the world in science achievement and #6 in the world in 
math achievement.
    10. In the article, School Physical Education: Effect of the Child 
and Adolescent Trial for Cardiovascular Health, the conclusions state: 
``The implementation of a standardized curriculum and staff development 
program increased students' MVPA (moderate to vigorous physical 
activity) in existing school PE classes in four geographic and 
ethnically diverse communities.
    10. In the article, Study: phys ed may boost academic achievement, 
a number of significant findings in this large student support the role 
that physical activity plays in bringing about improvement in academic 
achievement and classroom behavior in girls.
    11. In the January 2009 edition of the Journal of Physical 
Education, Recreation, and Dance, a meta-analysis of long-term studies 
demonstrates significant ways in which Physical Education has been 
linked to academic achievement. This article provides studies that 
indicate the following:

    <bullet> When students receive daily quality physical education, 
the rate of learning per unit of time appears to increase.
    <bullet> Physical education is positively related to increased 
academic performance.
    <bullet> Allocating time for quality physical education does not 
negatively influence academic achievement.
    <bullet> Reducing time for physical education does not guarantee 
improvement in academic achievement.
    <bullet> Engagement in physical activity is associated with 
academic achievement.
    <bullet> When children engage in physical activity, their cognitive 
performance significantly improves.
    <bullet> Physical fitness levels are related to student achievement 
on standardized tests.

    12. To show the psychosocial factors to be considered in developing 
and implementing a quality program whose purpose is to focus on the 
development of the total person, see the findings in the article, The 
Effect of Weight on Self-Concept, and Psychosocial Correlates of 
Physical Activity in Youths. These factors impact not only 
participation patterns in physical activity, but in overall school 
performance and in all life situations.
    13. The September 2000 Research Digest of the President's Council 
on Physical Fitness and Sports reviews all pertinent research related 
to Motivating Kids in Physical Activity. The findings of this and other 
studies informs curriculum planners and teachers in approaches that may 
be the most successful in helping children develop lifestyle behaviors 
that will lead to a healthy, active life.
    14. In her Alliance Scholar Lecture at the 2004 AAHPERD convention, 
Dr. Amelia M. Lee examined critical factors necessary to Promoting 
Lifelong Physical Activity Through Quality Physical Education. 
Challenges and implications were described that will help guide all 
physical education teachers in planning and implementing programs that 
will have the greatest likelihood for lifelong learning and behaviors.
    15. Reporting on statewide data for the 2007-2008 year on well over 
1 million children in the schools of Texas, results of the Fitnessgram 
testing instrument demonstrated clearly that those students possessing 
higher levels of physical fitness also possessed higher scores on the 
Texas schools academic testing program.

    A number of agencies have established recommendations regarding the 
amount and intensity of physical activity (ACSM, 1988: CDC, 1997; 
USDHHS, 1996). One recommendation is that all individuals should 
participate in regular moderate activity. For adolescent (ages 13-18) 
populations, Sallis and Patrick (1994) determined that Adolescents 
should engage in three or more sessions per week of activities that 
last 20 minutes or more at a time and that require moderate to vigorous 
levels of exertion.
    The National Association for Sport and Physical Education (NASPE) 
released guidelines for appropriate physical activity participation for 
children ages 5-12 in Physical Activity for Children: A Statement of 
Guidelines (Corbin & Pangrazi, 1998). One of the recommendations is 
that at least 60 minutes per day is encouraged for elementary school 
children and that some of the child's activity be in periods lasting 10 
to 15 minutes or more and should include moderate to vigorous activity.
    Furthermore, this report also stated that students should be able 
to self-monitor themselves to see how active they are and should also 
have individualized intensity of activities.
    Several methods of measuring physical activity have been used and 
tested with adults and children. These include self-reporting, activity 
counters, and monitoring heart rate by various means.
    Heart rate monitoring has been identified as a valid means of 
estimating energy expenditure and intensity of physical activity. 
Children's behavior patterns have suggested that the use of heart rate 
telemetry (wireless heart rate monitors) is the most effective means of 
tracking physical activity of children, especially in field settings 
(Gilliam, Freedson, Geenen, and Shahraray, 1981: Saris 1986). In fact, 
this method has been used to validate other methods and instruments. 
Heart rate monitors were used to validate activity counters such as 
Caltrac accelerometer (Sallis, Buono, Roby, Carlson, & Nelson, 1990), 
the Tritrac-R3D activity monitor (Welk & Corbin, 1995), the Computer 
Science Application (CSA) accelerometer (Janz, 1994), as well as 
interviewer and self-administered physical activity checklists for 
fifth grade students (Sallis, et al., 1996).
    The implementation of heart rate monitors by this program in the 
early 1980's (LIFE Magazine, February,1987), has provided the link to 
what is going on inside every student's body while they are engaged in 
the lesson. Beyond measurement for moderate to vigorous activity, the 
heart rate technology has proven to be the technology that validates a 
student's understanding of intensity. Observation that is used as a 
means for evaluating intensities of students has no objective evidence 
to confirm the teacher's perception or the student's perception of 
exercise intensities. With no objective data to reflect upon by the 
teacher and by the student, there have been generation after generation 
of students in Physical Education classes that have been disconnected 
to what is being referred to as intensity or how hard they are working.
    Physical educators' interpretation for moderate to vigorous 
activity has been simply through observation and not a measurable 
outcome for individuals on a daily basis. Consequently, there has 
always been a complete disconnect to exercise prescriptions for both 
students and teachers. We must take the guessing out of assessing.
    When using the heart rate technologies, the teachers and the 
students are connected to each other through the technology. The 
student has been given permission, through the use of the heart rate 
monitor, to adjust their individual pacing throughout class according 
to what is really happening second by second inside their own bodies.
    This connection and this ability to respond individually using 
appropriate intensities, provides a total immersion for individualized 
learning and individualized response that is self-directed. The teacher 
has the ability to recall all student data from heart rate monitors and 
deliver these reports to the parents as well as to the school board. 
This is a revolutionary system for which there is no other possibility 
to report intensities recorded from accurate readings from what is 
going on inside the body on a daily and individual basis. The heart 
rate data is automatically stored in student records and can be sent to 
the report card that has been invented for physical education: The PE 
Manager. Moderate to vigorous activity is clearly identified in these 
reports using bar graphs that are color-coded as well as data that is 
both in percentages and minutes and seconds.
    The data that is provided through this individual recording is also 
a part of the group data collection for each class period. The teacher 
and the student will be able to see the effects of the lesson 
intensities that provide the reflection for achievement both 
individually and collectively. This is a student and teacher relevance 
issue for all lessons. There is a contributing partnership from both 
the student and the teacher that is being objectively measured. The 
teacher is responsible for presenting lesson designs that can achieve 
the desired outcomes and the students have the ability to adjust their 
intensities to achieve their personal goals, and ultimately affect the 
group goals.
    The heart rate graphs are also the basis for examining the dynamics 
of a lesson, along with the use of digital cameras to record pictures 
throughout class. This has provided a detailed description for what is 
going on throughout the specific time segments of each class. This has 
become the relevance that links our lessons, our student achievements, 
our time-on-task lesson design and response, and our visual and data-
driven communication to our community.
    Grundy Center Schools have been in a partnership with the 
University of Northern Iowa, PE4life, and Polar Electro Inc. for the 
past 6 years. Seven or eight graduate students are recruited to live in 
Grundy Center while embedded in a contextually based, fully immersed 
Masters Program that links practice to theory while teaching part time 
in the Grundy Center Physical Education Program. One of the significant 
strategies is to incorporate strategies to inspire community health and 
fitness.
    One strategy that has been essential in linking our physical 
education program to the community is the ``Day In The Life'' project 
(Lessons From The Heart, 1997). The graduate students have specific 
homework assignments that engage the parents of their students to 
contribute to their own health and well-being and also to inspire one 
another to live better. One avenue for linking this physical education 
program to the community is to invite as many adults as possible to 
wear a heart rate monitor for an entire day. Hundreds of adults have 
participated in this lesson and their heart rate printouts are part of 
an ongoing program to inspire others to live better. The ability to see 
their heart rate on a colorful graph and interpret the data is 
powerful. It is the connection for each of these individuals with their 
own lives as well as to reflect on the daily lives of their own 
children and others in the community.
    These heart rate printouts are posted on the walls of the gymnasium 
so that all who enter this facility can reflect on not only the day in 
the life of so many adults, but also to become aware of what their own 
day in the life may look like. So far, 100 percent of the day in the 
life graphs exhibit sedentary lifestyles. Not one individual in this 
community has demonstrated anything other than complete sedentary 
living during their work day. This was an opportunity to not only 
document their daily sedentary lifestyle using this strategy, but also 
became the best avenue for educating our community members to cardio 
fitness and healthy diets.
    This technology provided a link to their own daily life patterns 
and this same technology was being used during the school days by their 
children. The education and the awareness for correct pacing during 
exercise and holding students and teachers accountable, was important 
for the families to understand. Through their own experience from 
actually using this throughout their day, this became a personal 
lesson. For many families, this was a starting point for making family 
health a priority and established a strong bond between the community 
and the physical education department and school system.
    This astonishing data from our community was part of the 
inspiration to open our school fitness center to the community during 
before and after school hours. A partnership with a YMCA in a nearby 
city has now developed using the school facilities to house the YMCA 
programs and its director for this rural Iowa community. The Polar 
Scholars are a contributing source for personal training and for 
leading specific youth and adult fitness programs outside the school 
day. This is considered to be a part of the total immersion of this 
program. It is through the YMCA programs that the Graduate students 
provide free BodyAge Fitness Assessments to the community at no cost. 
This is a very high tech assessment using the TriFit Assessment System.
    The Polar scholars are also involved in planning and delivering 
health living seminars each month for the community. These seminars are 
designed to continue to reach out to the community and to continue to 
inspire and educate one another. Community members are also being 
recruited to offer health living seminars and share their own 
inspiration with others.
    LCD projectors have been permanently mounted into the ceilings of 
the gyms and fitness room. These audiovisual projection systems are a 
part of the teaching and learning strategies that enhance the learning 
opportunities for all learners. The learning points are easily seen 
from the projection system that is displayed on one of the walls. 
Video, heart rate graphs, rules of games, lesson concepts, etc. are 
examples of the learning opportunities that are improved with the 
visual capabilities in the physical education classes. The expectations 
for the Polar Scholars are that they must produce all lessons using the 
projection system that will help deliver a high rate of learning 
success.
    There are sophisticated audio systems that are in place in each 
gym. Music is an important part of enhancing the learning environment 
and in moving students from one transition phase of the class time to 
the next. Aerobic time would have music that is upbeat. Warm-up time 
would have music and instructions that would have been programmed into 
the system by the instructor for the week. Classical music is used 
during the warm-up phase of class, with each month focusing on a 
different composer.
    A wireless microphone is also in place for all instructors so that 
instructions can be clearly heard by everyone and the voice of the 
physical educators is at a normal level. Shouting in large gyms can be 
interpreted by students as an instructor who is angry. It is important 
for students to hear the instructions and to understand what the 
instructor is saying.
    High-tech fitness testing is in place in this program. All cardio 
testing is done with all students using a downloadable heart rate 
monitor to record heart rate throughout the cardio testing protocol. 
This means all testing is done with all students first resting in the 
gym during the pre-exercise phase of the cardio protocol. Students are 
then stagger-started for the actual cardio test. This important 
strategy is used to insure that obese students do not finish last 
during a mile run test and to insure that no student is exercising at 
too high an intensity.
    Because of the use of heart rate monitors, there is a record for 
the entire protocol and this heart rate graphing is recorded 
automatically inside their student records for future reference. These 
visual graphs are also used to teach using the data for heart rate 
education. Students are asked to evaluate their heart rate response 
throughout the cardio test. Using their own graphs from the previous 
day provides the link for personalizing this learning experience. This 
is exactly what the Workplace Competency, Standard 5, is seeking: New 
knowledge by evaluating, combining, and extending information using 
multiple technologies.
    Beyond the heart rate information, there is also use of activity 
monitors that students and parents can wear throughout the day and 
night for an entire weekend. This information can be downloaded and 
looked at by the entire family. Each family member is assigned the 
activity monitor and as a family fitness strategy, they log into the 
web-based program and record their personal information each day. It is 
a matter of discussion and mutual interest in seeing if all family 
members are getting daily moderate to vigorous activity.
    The multiple technologies that are invented for the profession must 
be embraced, and will be part of the modernization of the physical 
education profession. We believe that with the lifestyle illnesses at 
such high levels, lifestyle indicators must become the center of our 
high tech evaluations for lifestyle wellness. Beyond functional 
fitness, our testing must include relevance to occupations. Three other 
assessments that Grundy Center is embarking on will include the fitness 
tests for all 6th through 12th grade students for the Military Fitness 
Test, the Firefighters' Test, and the Police Force Tests. In addition, 
we are also looking carefully at what Insurance Companies are now 
including in their screening tests for reduced premiums. If we can show 
parents and students that their children in high school are able or 
unable to be employed because of the ability to pass these tests, it is 
a wake-up call that can be motivating in new ways for our populations. 
If our high school students do not qualify for reduced insurance rates 
because of poor fitness and health, they may be destined to a life of 
high insurance rates and early disabilities.
    Lifestyle illnesses will require lifetime investments for us all. 
The new physical education programs must reach outside the walls of the 
gym and into the hearts and minds of our entire communities.
    Thank you again for this opportunity to present this information, 
and I will be a tireless supporter of your actions on this bill.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               References
    1. Definition of A Physically Educated Person (NASPE Outcomes 
Project).
    2. U.S. Surgeon General: Recommendations for School and Community 
Programs Promoting Physical Activity Among Young People.
    3. Circulation. 2003; 107:1448. Obesity, Insulin Resistance, 
Diabetes, and Cardiovascular Risk in Children. An American Heart 
Association Statement.
    4. Nature Clinical Practice Endocrinology & Metabolism. Nov 2007. 
Management Approaches for Pediatric Obesity. (Accessed through 
Medline).
    5. National Center for Chronic Disease Prevention and Health 
Promotion. Physical Activity and Health, A Report of the Surgeon 
General. At-A-Glance, November 1999.
    6. Circulation 2006; 114; 1214-1224. (Journal of the American Heart 
Association). Promoting Physical Activity in Children and Youth: A 
Leadership Role for Schools: A Scientific Statement From the American 
Heart Association Council on Nutrition, Physical Activity, and 
Metabolism (Physical Activity Committee) in Collaboration With the 
Councils on Cardiovascular Disease in the Young and Cardiovascular 
Nursing.
    7. National Alliance for Nutrition and Activity. Reducing Obesity, 
Heart Disease, Cancer, Diabetes and Other Diet- and Inactivity-Related 
Diseases, Costs, and Disabilities. 2006.
    8. AASA. School Governance and Leadership. Spring 2006. School 
Policy and Practice: Taking On Childhood Obesity.
    9. Robert Wood Johnson Foundation. Active Living Research. Active 
Education: Physical Education, Physical Activity and Academic 
Performance. Fall 2007 Research Brief.
    10. Kenneth Cooper, M.D. The New Curriculum Emphasis in Physical 
Education.
    11. State Legislatures. December 2007. PE Makes A Comeback: 
Lawmakers are looking at physical education to improve kids' health and 
academic achievement.
    12. Journal of Exercise Physiologyonline (JEPonline). Volt. 8 No. 1 
(Feb. 2005). Grissom JB. Physical Fitness and Academic Achievement. 
Details and highlights The California Study (N=884,715).
    13. Education Week (Feb 2008). Viadero, Debra. Exercise Seen as 
Priming Pump for Students' Academic Strides.
    14. Preventive Medicine. Volt. 25, Issue 4, July 1996, Pages 423-
431. McKenzie, Thomas L., et al. School Physical Education: Effect of 
the Child and Adolescent Trial for Cardiovascular Health.
    15. USA Today. Heather Terwilliger. Study: Phys ed may boost girls' 
academic achievement.
    16. Smith, Nicole J. and Monica Lounsberry. Promoting Physical 
Education: The Link to Academic Achievement. JOPERD (Jan 2009), PP. 39-
43.
    17. Corbin, Charles B., Guy C. Le Masurier and Dolly D. Lambdin. 
Fitness for Life. Champaign, IL: Human Kinetics Publishers. 2007, PP. 
III-V.
    18. Loughrey, Thomas J., Physical Fitness/Healthy Lifestyle Strand: 
Content Structure and Emphases. 2000.
    19. Welk, Gregory and Roxane Joens-Matre. The Effect of Weight on 
Self-Concept, and Psychosocial Correlates of Physical Activity in 
Youths. JOPERD (October 2007), PP. 43-46.
    20. President's Council on Physical Fitness and Sports. Research 
Digest: Motivating Kids in Physical Activity (September 2000).
    21. Lee, Amelia M. Promoting Lifelong Physical Activity Through 
Quality Physical Education. JOPERD. May/June 2004. PP. 21-55.
    22. Kirkpatrick, Beth and Burt Birnbaum. Lessons From The Heart. 
Champaign, IL: Human Kinetics Publishers. 2000.

    The Chairman. Oh, boy. Now you can see why I had Secretary 
Duncan go to the Grundy Center school.
    [Laughter.]
    I wanted him to see, with his own eyes, just what can 
happen to kids who have access to quality physical activity and 
wellness programs when they first enter kindergarten on through 
high school. They measure these kids, they keep track of them 
as they go through school. And as Beth said, they went out and 
got the whole community involved so that the parents now know 
what the kids do, and they know what's happening to them, too. 
It has been a whole community effort, and what they've done at 
that school has just been phenomenal.
    What's the population of Grundy Center?
    Ms. Kirkpatrick. Twenty-five hundred, and we're in the 
middle of a cornfield.
    [Laughter.]
    The Chairman. I always say, ``If a town of 2,500 can do 
this, obviously we can do it other places, too.'' It's not 
rocket science, it's just determination--as you say, ``using 
modern technology'' to improve health and wellness for these 
kids.
    The one thing you didn't mention that I wanted Tim Shriver 
to hear is, I've been there a couple times, and I've seen kids 
with disabilities and how you get them integrated into that 
whole process.
    Ms. Kirkpatrick. Yes.
    The Chairman. They can't do some of the exercises other 
kids do, so they have exercises tailored to them, to get their 
heart rate up. Whether they're in a wheelchair, or whether they 
have an intellectual disability, you have them get their heart 
rate up.
    Ms. Kirkpatrick. Yes. We had a global conference last week, 
where we had--3 years in the planning--we had 100 professionals 
from the world; 25 countries came in for 3 days to study and 
look at what we were doing. When the people talk about 
philosophy and theory, they came to see solutions. It was 
shocking to see how the people that came in from all over--we 
had representatives from, I think, almost 25 countries. It was 
phenomenal. That was one of the things they looked at.
    The Chairman. I always say Rick Schupbach and Beth 
Kirkpatrick are better known outside the country than they are 
in our own State, which is kind of sad, really, as a matter of 
fact.
    One thing I want to cover--oh, we started the vote. I just 
want to ask all of you this, If we want to encourage physical 
activity, if we want to get schools to really think about the 
whole child, should this be a part of the grading system?
    Ms. Kirkpatrick. Yes.
    The Chairman. In other words, if you don't get graded on 
something, you tend to push it off, but if you're getting 
graded on it, and it can add to your grade point average, as 
you go through--well, I don't know.
    Ms. Kirkpatrick. Yes.
    The Chairman. You're saying yes.
    Ms. Kirkpatrick. Absolutely.
    The Chairman. Do you do that in Grundy Center?
    Ms. Kirkpatrick. Absolutely.
    The Chairman. It's part of----
    Ms. Kirkpatrick. We measure on what's fair. Leveling the 
playing the field means that, if you're going by heart rate, 
how many minutes you're in or above the target zone--it means 
that it's right for the obese kid, for the skinny kid, for the 
athlete. The athlete has to work hard to get his heart rate in 
that zone. The obese kid doesn't have to work as hard, but is 
working as hard. That's why we have to have multiple pieces of 
equipment; so I can ride an exercise bike--there are bikes 
invented that produce energy. We're getting a bank of bikes 
that will produce energy. You hook it up to the electrical 
grid, and we believe that we can save 20 percent of our cost 
for energy by having the electrical grid.
    I want to get people that are mowing lawns, I want to buy 
25 of the hand lawnmowers--once every 3 weeks the PE class 
could go out, we could mow the entire grounds every 3 weeks.
    The Chairman. You may have just lost me there.
    [Laughter.]
    It's a joke.
    How do you feel about the grading system, Dr. Pate? I mean, 
having this as part of the grades?
    Mr. Pate. I absolutely believe we should grade our schools 
in this area. I believe this should be part of the school 
report-card system across the country, and it is not, now. If 
you look at the accountability systems that have been adopted 
by the States, they very consistently focus only on the core 
academic subjects, and they leave out physical education and 
health education. I think we're unlikely to level the playing 
field, here, until we incorporate PE and health education into 
the school report cards across the country.
    The Chairman. That's what the FIT Kids Act does--grade 
schools. We're still working to address this. Should schools be 
encouraged--we can't tell them what to do, but should we have 
incentives in ESEA to encourage schools to grade the kids, to 
give them grades in physical education, nutrition and wellness? 
I don't know.
    Tim.
    Mr. Shriver. Just briefly, Senator. I think the grading--
the balance scorecard for schools is desperately needed. The 
corporate world moved in this direction generations ago, to 
have multiple measures of performance, multiple measures of 
outcomes, not just one bottom line; double, triple, quadruple 
bottom lines. Schools need a balance scorecard, an array--a 
scorecard that gives them a clean and balanced view of what 
goes on in schools.
    I would add, I think grading is an empowering tool for 
kids. The country's moving toward the potential for electronic 
health records, people would be empowered to know their own 
health status, to be able to monitor their own health 
indicators. That can start very young. Children can begin--
maybe we don't have to measure pull-ups anymore, but we can 
measure how many something-elses we can do--not just to be able 
to judge teachers in schools, but to empower young people. 
Young people want--when you say to them, ``You've run a mile in 
7 minutes and 35 seconds,'' they want to get their time down. 
They want to get better, they want--they see these scores, 
goals, and measures as inspirational things, so I think it's 
not just about assessment. It's also about empowerment.
    I would strongly encourage the committee to consider 
multiple ways of looking at assessment in schools, not just as 
a way to evaluate what schools do, but also as a way to empower 
parents and children to take control of their own learning and 
their own health.
    The Chairman. Dr. Yancey, how do you feel about grading?
    Ms. Yancey. Well, I think that, as long as the grading 
system is really focused on the long-term objectives that we 
want--so, if what we're looking for is to build skills for 
lifetime physical activity participation and to get kids in 
shape, as opposed to building the next generation of revenue-
sport athletes, then we need to have the types of grading that 
Ms. Kirkpatrick is talking about. We need to have grading 
that's based on effort, based on showing up, based on learning 
a set of skills, but not so much based on how fast you are or 
how far you can jump.
    I also think that we need to have the grades that kids get 
included in their GPA so that when colleges look at it, that's 
a part of the system; that shows that we think that this is 
important.
    The Chairman. Thank you.
    We have a vote on, and we're in the second round of voting. 
We will just have to recess for a few minutes and come back. 
OK?
    [Recess.]
    The Chairman [resuming the chair]. The committee will 
resume its sitting.
    Senator Enzi has an amendment on the floor and will not be 
able to come back, at least not right now.
    When we left, I was asking all of you about this idea about 
grading, and whether they should be incorporated somehow in the 
structure of how schools are assessed. I asked everyone, but I 
didn't ask Dr. Levin.
    Dr. Levin, you're batter up.
    Dr. Levin. Thank you.
    I'm sort of not thinking that grading the kids is the best 
idea. It somewhat seems punitive. I really do think we need to 
grade schools--I agree with Dr. Pate--particularly in the 
question of whether we're providing certain levels of services. 
Obviously, if a child has not had access to any sort of 
healthcare, much less well-child care, I don't know that hoping 
that physical education alone is going to make the difference 
in their health status.
    I think that we should have a report card that allows that, 
somewhere in a community, either through a school-based clinic 
or through a community health center or through the regular 
other sets of health services, every child has access to 
primary care so we can assure that they're ready to exercise. 
Then it may become important to start grading the kids on their 
effort.
    I think we have so many communities--in your State of Iowa, 
and clearly in my home State of Tennessee--where kids may 
actually have tickets to ride, but no one to take the tickets, 
in terms of healthcare services. The school-based clinic 
becomes very important in providing some sort of--what is the 
word you used--``leveling ground'', to make for certain that 
everybody's ready to exercise and be ready to put out their 
full effort.
    The Chairman. Well, obviously we've examined that in the 
past, too, about school-based clinics and about health 
interventions for kids in school. It sounds like you've done a 
pretty good job of that down in Tennessee, though, with your 
school-based clinics.
    Basically, all of you are thinking that we ought to have 
some system of evaluating schools on how well they do to 
encourage and provide for physical exercise. Now, a lot of 
times, people use the word ``physical education.'' I talk about 
``physical exercise,'' I don't say ``physical education.'' I 
assume there is an education component to it, but it's more 
just getting kids moving and exercising.
    You all feel pretty strongly--I think I found a consensus 
that we ought to at least have some system of evaluating 
schools on this basis. We're going to change No Child Left 
Behind in this way. No Child Left Behind, the annual yearly 
progress was based upon how close you got to a goal, like--an 
unattainable goal. It's got crazy kinds of situations, like 
Secretary Duncan and others have talked about, where you could 
have a teacher that had a couple of kids who were two grade 
levels behind; at the end of the school year, they were only 
one grade level behind. Yet, the teacher was designated ``not a 
good teacher.'' When, really, that teacher was a good teacher.
    We're looking into a growth model, to account for the gains 
that students and schools make. I'm also thinking about, how we 
incorporate, into a growth model, encouragement for schools to 
provide physical exercise to get these kids moving? You've all 
had experience in that area. What are the best strategies? What 
are the most effective strategies? And how can the Federal 
Government promote those? We provide only 9 percent of the 
funding for elementary and secondary schools. As we've shown in 
No Child Left Behind, we can provoke and promote, changes in 
different things. What are some of the best strategies that we 
can use? How can the Federal Government promote those? This is 
an open question. Anybody want to take a shot at that, at all?
    Mr. Pate. I'll take a shot.
    The Chairman. All right.
    Mr. Pate. There are systems for systematically evaluating 
the caliber of physical education that is delivered. 
Unfortunately, those systems are not widely applied. And there 
are a number of reasons why they aren't. In some cases, 
resources are required that haven't been made available. In 
some cases, the schools themselves have been resistant, just 
because of the burden. But, the systems exist and they are 
validated, they do work; and if they were widely applied--and, 
I think, if incentives were provided, then the schools would be 
much more open to adopting them--but, if they were widely 
applied, I'm convinced they would have an enormous impact on 
the quality of physical education that's delivered around the 
country.
    Ms. Yancey. Senator Harkin.
    The Chairman. Yes.
    Ms. Yancey. I definitely agree with Dr. Pate's comment. 
Physical education time, that time that is designated, and 
usually mandated to be a certain amount of minutes per day or 
per week, is the primary opportunity, and we need to make that 
time more active. There are evidence-based programs, like 
sports play and active recreation for kids, or CATCH. I've 
forgotten what CATCH stands for, but it's a Texas-based program 
that has been implemented nationally, as well.
    I think that that's a starting point, but I also think that 
there's increasing evidence that inactivity--long periods of 
inactivity--is hazardous to your health. And I think that, for 
that reason, activity breaks integrated into the school day, to 
get kids up and moving, both helps the school's mission and it 
also helps the kids' health.
    If you'll bear with me, I just would encourage you to--just 
everybody standup for a moment, I'd like to demonstrate what 
we're talking about with Instant Recess.
    The Chairman. You're on.
    Ms. Yancey. OK. So, let's everybody march in place. 
Everybody march in place. OK. Now, we're doing something that 
you can literally do just about anywhere. I'm going to 
introduce you to one that we just developed, in concert with a 
Native American reservation in Montana, and so it's based on 
pow-wow dance. While you're marching, keep marching, hands on 
your hips. OK. Now, bend just a little from the hips, keep your 
back straight. Arch your back a little bit. OK, keep your back 
straight, keep marching. OK, now I want you to just flap your 
wings. Flap your wings.
    [Laughter.]
    Now, doesn't that feel good? Really, your back is a little 
stiff and tense--five, four, three, two, and one. You may sit 
down.
    [Applause.]
    The Chairman. All right. Well, that kind of leads me to a 
question I was thinking about. Most people think about physical 
exercise during the day as--you've got to round up all these 
kids, send them outside, they've got to put on their tennis 
shoes--it takes time to do all that kind of stuff, go to their 
locker, come back. There's a lot of things you can do by your 
desk to promote activity. That's one of them.
    I've seen this happen before, where kids would get by their 
desk and do certain things, and some teachers, who were more 
learned in yoga, had kids doing certain stretching exercises 
and things like that, that helped them be more limber. Just 
things like this, you could do by your desk.
    Ms. Yancey. You can, but one thing that I will say, in 
school it works fine to have kids doing it by their desks. I 
also think that if we really want to create a movement in this 
country, we've got to get everybody moving. I would love to see 
you do this on the Senate floor.
    [Laughter.]
    The Chairman. Uhhhh.
    [Laughter.]
    Ms. Yancey. We've got the DVD.
    Mr. Shriver. During the State of the Union Address.
    Ms. Yancey. There we go.
    The Chairman. What did you say, Tim?
    Mr. Shriver. I was saying, ``Why not during a State of the 
Union Address?''
    [Laughter.]
    Dr. Levin. I'd like to say, innovation, I think is really 
most important for the--answering the question that you were 
asking.
    This happens to be one of the positive things about being 
in school health. This is a thank you note from Vonore 
Elementary School, thanking us for a garden. We just have a 
grant, that they're building a garden. The important thing is 
that the garden, while they're growing food and they're 
learning about natural food, they actually had to get out and 
make the garden. They had to get their parents involved in 
helping them do the garden. I realize this is modeled off of 
something that's been happening here in Washington, as well, 
but I think that if we had gardens happening at all of our 
elementary schools, there's a lot of physical activity that 
goes on. I think we have to be open to the fact that all sorts 
of things, Instant Recess, time after school gardening--you 
know, Wiis, whatever it is to move ahead.
    The Chairman. Well the First Lady is working with Secretary 
Vilsack, and some of us also on the Agriculture Committee, to 
promote more school gardens. That's sort of a nascent movement, 
but it's catching on, more and more around the country. That is 
happening.
    Ms. Yancey. Senator Harkin.
    The Chairman. Yes.
    Ms. Yancey. There's also something called the Moving School 
Concept that has been used in Europe some. I'm aware of a 
couple of articles from Germany. They actually restructure the 
school day, and not in a way that would require a huge 
investment of capital, but just reorganizing the classroom 
space so that kids have to move around from station to station. 
Putting kids on balls instead of seats, so that you kind of 
have to move and juggle a little bit. I actually use a ball at 
my workstation at work. Actually makes me feel a lot better 
just looking at the ball, rather than a regular desk chair. I 
think that there are these kinds of strategies--and again, it's 
innovation, but it--since I'm mostly concerned about the low-
resource schools, it has to be kept simple. It has to be things 
that people can do just about anywhere, without the kinds of 
resources to completely revamp the entire school, which we hope 
will happen.
    Mr. Shriver. If I could just, briefly, Senator, this issue 
of measurement, I think, is really at the heart of this 
reauthorization process. What are schools accountable to do? 
What are they accountable for? How will accountability be 
measured? I think most educators see accountability as here to 
stay. Although some would like that to not be the case, I think 
most recognize that that's a positive change. What I find, when 
I talk to teachers, principals, school board members, 
superintendents, and so on, is--the problem is how 
accountability has, up until now, been defined. As you say, 
annual yearly progress measures just don't work. They're not 
accurate. We're in the nascent stage of figuring out how to 
measure school performance. This is a whole new thing. When I 
started an education in 1981, there was no Federal 
accountability. There was no standard in education, at all.
    I would put my strongest voice in favor of trying to invite 
your staff and other experts to shape a balance scorecard that 
could form a new era of accountability, that would look at 
issues that parents know and want to know, that kids know and 
want to know, that educators want to know more about. Some of 
the data exists, some of it could be around attendance. There's 
a whole range of behavioral measures of schools: attendance, 
dropout rates, suspension rates, referral rates to--for 
violence and fighting, and those kinds of things. They're 
really important indicators for parents about whether they want 
their child to go to that school or that school is getting 
better, or not, if violence rates are going up or down.
    But, again, systematically, the Federal Government hasn't 
asked people to be accountable for those kinds of data. Same 
thing is true of physical--in Special Olympics, we have, what I 
would consider, process measures, we ask people to set 
standards for the number of hours. It's not a particularly 
precise measure, but at least it invites people to recognize 
that number of hours, frequency of exercise, frequency of 
training, and frequency of skilled practice is a standard of 
quality. It's not particularly sophisticated. It, as you point 
out, uses the leverage of the Federal Government to get people 
asking the questions. Then the innovation can take place at the 
local level. You don't strangle the local districts. You don't 
strangle teachers. You just say to teachers, ``These are the 
kinds of things the country has a vested interest in.'' Then 
you inspire the kind of innovation that you're seeing to my 
left and right here. The local control is there, but the 
Federal Government is playing its role, I think, in a very 
healthy and productive way.
    The Chairman. That's where I hope we're headed. One thing 
that's different now, that's going to happen next month, is, 
States have signed on to Common Core Standards. We've never had 
that before. Common standards has been a long fought battle. 
Forty-eight States, as you know, 2 or 3 months ago, signed on 
to develop this Common Core Standards, which are supposed to 
come out next month, if I'm not mistaken. That is a huge step 
forward.
    Mr. Shriver. Huge. And those standards are much different 
than NCLB-type measures.
    The Chairman. That's very true.
    Mr. Shriver. Figuring out how the standards now become the 
platform for a new range and a new generation of measures is 
really, maybe--I heard Senator Enzi say, ``We need to fix,'' he 
used that word, which I found extremely--as I was saying to his 
colleagues, extremely powerful. To me, the centerpiece of the 
fix will center on how the Federal Government, and how this 
Congress and Senate, decide to shape what we're going to ask 
people to be held accountable for.
    The Chairman. Ms. Kirkpatrick.
    Ms. Kirkpatrick. I'm concerned about the rampant 
discrimination that's going to happen across this country. 
They'll have two people they'll interview, and there'll be an 
obese person, who could be brilliant, and someone who is in 
shape, and they won't be quite as brilliant; that person there 
is going to be left out. As we see this--it scares me to death 
to think that the same amount of minutes are being put into 
physical education classes or activity for the obese kid as the 
skinny kid.
    Somewhere along the way, we have to have remedial physical 
education or remedial help. We have to identify these kids very 
young, because when you start to look at hiring practices, the 
trends are out there, that these States--and I'm not going to 
say the name of the State--but they're worried about getting 
businesses to come because they know that if they have an obese 
population, they're going to miss more work days--there's a lot 
of things going to happen because of discrimination. I don't 
think we've even imagined what's going to happen on that.
    The Chairman. I'm not certain I understand this.
    Ms. Kirkpatrick. Well, what will happen is, the data shows 
that the obese worker has taken more work days, spends seven 
times as much money because of healthcare cost. We'll come back 
to these small----
    The Chairman. I understand all that. Are you suggesting 
that, in school, that somehow kids who are more obese need more 
time for exercise.
    Ms. Kirkpatrick. Yes, I am.
    The Chairman. They have more exercise----
    Ms. Kirkpatrick. I am. We're doing that in Grundy Center. 
We have our partnership with the University of Northern Iowa, 
their graduate program, with seven grad students--is that we 
can pull students out of study hall, or before or after school, 
and give personal training to get these kids on track before 
they graduate. If a teenager graduates obese, 28 out of 29 
remain obese their entire lives, which affects their entire 
cost of everything.
    The Chairman. One thing I don't know about what you do 
there, do you also have nutrition?
    Ms. Kirkpatrick. Oh, absolutely.
    The Chairman. You do.
    Ms. Kirkpatrick. Yes, absolutely.
    The Chairman. Yes.
    Ms. Kirkpatrick. In fact, I was impressed with your 
lunchroom down here, in the Senate, the great choices. I think 
so many people have--and you had some grants that were 
available, that we were unable to get, with giving away fruits 
and vegetables.
    The Chairman. Yes.
    Ms. Kirkpatrick. That was a great idea.
    The Chairman. Fruit and vegetables.
    Ms. Kirkpatrick. Yes, we have no pop machines, no soda 
machines, we have really revamped the entire thing. Yes.
    The Chairman. I guess I just worry that--let's face it--
some kids who are obese get picked on, they get bullied, and 
then, if they're somehow separated out for special attention--
--
    Ms. Kirkpatrick. It's a tricky thing.
    The Chairman. That kind of bothers me a little bit.
    Ms. Kirkpatrick. Yes.
    The Chairman. Should it bother me?
    Ms. Kirkpatrick. If they couldn't read, you'd have a 
reading teacher help them.
    The Chairman. Well, you're right about that. I have to 
think about that one. That's interesting. You could have--well, 
I guess maybe it's like individualized instruction for kids. 
Right? I'll have to change my thinking about that.
    Dr. Yancey.
    Ms. Yancey. Well, Senator, one thing I think that we're 
going to have to do before you could do that is to make sure 
that physical activity framing stops being something that's 
punishment and starts being something that is fun and exciting 
and relaxing and all that sort of thing. Then if the obese kids 
were selected out to get more of it, they might be happy about 
that.
    The Chairman. And something----
    Ms. Yancey. But, not the way that it is right now.
    The Chairman [continuing]. That's attainable, something 
that the kid can do.
    Ms. Yancey. Absolutely. It has to be something they can do. 
I'd also like to say that, because of what Ms. Kirkpatrick is 
saying, we also need to focus on what's going on in the pre-
school day period, and the after-school period, because those 
are great opportunities to get kids more physically active--if, 
in fact, the teachers had the training.
    That brings me to the point of--we really need to focus--
and I think the Federal Government could use its leverage in 
this way--on the pre-service and the in-service period. The 
President's White House Childhood Obesity Task Force report 
points out that we need to get teachers more training to do 
things like activity-focused PE and recess breaks, and that 
sort of a thing. We also need to require it of elementary 
school teachers before they ever get into the classroom.
    The Chairman. Yes, what you're saying is that this 
shouldn't just be the domain of the PE teacher.
    Ms. Yancey. Right.
    The Chairman. Every teacher.
    How do you do that in Grundy Center?
    Ms. Kirkpatrick. We have the ``brain breaks'' that we have 
built in. We have 52-inch screens in all of our classrooms, so 
we've tapped into people who have produced videos.
    The Chairman. I mean, are your teachers trained in physical 
exercise?
    Ms. Kirkpatrick. Yes, they have the ``brain breaks.'' You 
can buy the videos, and you pop them in--and the kids stand up 
every 20 minutes and do some activities that are 2 to 3 
minutes. Yes.
    The Chairman. So, not just PE teachers, but all of your 
teachers are trained in physical education and wellness?
    Ms. Kirkpatrick. All of our teachers.
    Dr. Levin. Actually, when they--it gets more tight 
financially. Frequently there aren't PE teachers, so your 
regular teachers have to do these things.
    The Chairman. That's right.
    Dr. Levin. Some of them are excellent, and some of them are 
not so excellent, and that goes back to, ``How can you 
encourage excellence?'' which I think she has some good ideas 
on.
    I think that it's important to recognize that it's 
everybody's responsibility. I'm a big believer that you have to 
get--you can't exclude the family--that you've got to get the 
family involved. That's somewhat challenging, because the child 
can't come to school and live in one culture and go home and 
live in another culture. It's really important to--what she's 
been doing has been wonderful. We're doing some of that in our 
neighborhood, as well.
    The Chairman. Dr. Pate.
    Mr. Pate. Senator Harkin, I think it is appropriate for the 
schools to be involved in providing special services for kids 
who are already overweight. I think that that can happen in 
some cases effectively by making good linkages between the 
schools and community-based providers of special services. I 
think the real lesson of the childhood obesity epidemic is--we 
have to take actions to prevent it. Because treatment of this 
problem is just awful. We wish it worked better than it does. 
It's an enormous challenge to treat it effectively and to help 
a child gravitate toward a normal weight that will be 
maintained in the long-term. So, without in any way overlooking 
the needs of kids who are already overweight, I think we have 
to focus on prevention, because this is a problem that just 
requires it.
    Mr. Shriver. Senator, yes, I would just make one, maybe, 
slightly different point, just picking up on what some of my 
colleagues are saying. Most elementary and middle schools do 
not provide after-school sports. It's mostly done by park 
recreation departments, in most places in the country. While 
the physical education, the old model, which was done in 
schools--sports, which is, in general, what kids like--they 
want to play, they want to go out and race around and play. It 
doesn't mean they don't want nonsports physical activity. They 
love sports--kids--younger kids, especially. Most of that's 
provided by community--nonschool-based institutions, either 
park rec departments or community-based organizations----
    The Chairman. Right.
    Mr. Shriver [continuing]. Similar to ours, Boys and Girls 
Clubs are here, Girl Scouts and Boy Scouts organizations. These 
kinds of organizations form a massive network of community 
assets that are still, in most respects, outside the 
schoolhouse door; they are not fully integrated into the life 
of the school.
    We think about indicators of things like school climate, 
school community's cooperation, when you think about, 
particularly in vulnerable communities, the integration of 
parents and community resources into the governance of schools, 
these are primary factors in contributing to learning. Yet, 
most schools are structured to, in effect, draw a fairly strong 
line between themselves and those community-based 
organizations. I don't know how you legislate this, I'm not 
necessarily proposing a specific element of NCLB or the 
reauthorization process, but I think we have to think 
creatively, and we have to encourage educators to think 
creatively, about the role that community-based resources can 
play.
    A little bit of personal history--when you look at our 
population, people with intellectual disabilities, who are 
managed with tremendous neglect, for generations, and kept 
inactive, and had life spans that are a fifth what they are 
today. Just 20, 30 years ago, what changed the attitudes was 
community-based physical activities, it was Lions Clubs, it was 
Rotarians, it was those kinds of groups. It was men's and 
women's organizations, it was them--they we went out and they 
said, ``We'll run sports activities, we'll do the training, 
we'll be partners in this.''
    In a time of very tight budgets, how the Federal Government 
sets standards is critical. How local districts, State 
education districts, think about implementation may have to 
require that we be creative, in ways that might not include 
necessarily having a traditional structure of classroom 
instruction and professionalized teachers in the school day. I 
don't mean to downplay in any way the importance of that 
activity, but it's only to say we might have to think more 
broadly.
    The Chairman. I was just talking to my staff about this. 
We've had a hearing with Mr. Johns about how schools can 
coordinate with other entities. With the limited funds that we 
have, if schools were to do the things you were talking about, 
Mr. Shriver, then we would provide some kind of incentives to 
promote this, and to build the kind of examples that other 
schools could pick up on.
    Mr. Shriver. I think some of that is in your legislation, 
Senator. Some of it's in the Fit Kids Act.
    The Chairman. Yes.
    Mr. Shriver. I'm sorry.
    The Chairman. I'm just told, also, in the Health Reform 
bill that we put in, we had this whole section on prevention 
and wellness. We have the Community Transformation grants.
    Mr. Shriver. Right.
    The Chairman. To encourage communities to also coordinate 
with schools to do things like this. I'll see how we--I think 
that there's someplace in ESEA reauthorization or this, 
somewhere. I'll have to figure it all out, but there's 
someplace for this.
    Mr. Shriver. Right.
    Ms. Kirkpatrick. I think we have to keep the heat on the 
parents, too. I think that that's drawing them in. We've been 
putting activity monitors on the entire family, and they go 
home for the weekend, and we find out how much time they're all 
active--the mother, the father, the grandparent, if need be--
and even how much time they're sleeping. And if you look at 
kids, a lot of the obese kids are not sleeping as long. That's 
one of the things that I read today in one of the newspapers, 
was that, that is a trigger, that not enough sleep is causing 
obese kids, or I think it is causing one of the factors of 
obesity. When we see that we can see how long kids are 
sleeping, we can sort of make recommendations to the entire 
family, that, ``Your kids are getting 7 hours of sleep at 
night. Ten hours of sleep is what you need to have, or 11 hours 
of sleep.''
    The activity patterns of an obese child and his entire 
family has been shocking. You're going to see very close 
correlations between these. It's an eye opener. It's something 
that our community is looking at very carefully.
    The Chairman. We've been joined by Senator Casey.
    Senator, welcome.

                       Statement of Senator Casey

    Senator Casey. Mr. Chairman, thank you very much.
    First of all, I want to thank the Chairman for calling and 
organizing this hearing, one of many that we've had that have 
really gotten to a level of detail and substance that doesn't 
always happen around here. We're grateful for his leadership.
    I have to apologize that I missed a lot of the hearing. I 
wanted to ask a couple of questions.
    First of all, thank you for being here, bringing your 
expertise and your experience to bear on these critically 
important questions.
    I have a couple of questions, in the time that we have, I 
guess, in about three or maybe four areas. Some of this will be 
repetition for you and for the audience who are behind you, but 
it doesn't hurt to do that in Washington, to repeat ourselves 
and focus on what's important. One question revolves around the 
role of the Federal Government and State governments and local 
governments. It's kind of one question which is difficult to 
get sometimes very specific about. The other questions revolve 
around resources and access, and one question about age, but--
try to make it three.
    First of all, I'll just work backwards--for the whole 
panel, is there an age at which the work that has to get done, 
or the emphasis and focus that has to be brought to bear on a 
child's health and wellness--is there an age at which it's 
ideal, or is there an age at which you begin to lose the 
battle, that it's too late? Or is it not as much dictated by 
age as it is by circumstance or family or school environment or 
the approach that's brought to bear? Is there a definitive age 
factor here that we have to be cognizant of when we enact new 
legislation?
    Mr. Pate. I'll try that one. Having thought a lot about the 
factors that influence a child's physical activity behavior, 
while I wish there was an age at which we could intervene and 
inoculate a child against a future of physical inactivity, I've 
concluded that there isn't one. I think kids' physical activity 
behavior is very shaped by the environment that they're in, at 
any age. I think we have to be concerned about that 
environment--school environment, home environment, community 
environment--throughout the developmental period. I think a kid 
can be active at one stage and not active at another, depending 
upon the characteristics of the environment where he or she 
spends their time.
    Senator Casey. Anyone else?
    Dr. Levin. I think you may have these graphs, this 
connection to my comments. These are body-mass index reviews on 
entire school populations for a very small rural county. The 
sad thing to note is that the kids come into school with better 
healthy weights, and they get worse as they approach their 
puberty. Then there's a little bump back. It seems to me that 
there's something in that age group, what we call ``latency'' 
or whatever, around ages 8 to 12, that we really need to do 
something better, because that's where we seem to lose the--at 
least we, in Monroe County, vis-a-vis our statistics--seem like 
we're losing the game there.
    Now, do I have an intervention that will make things 
different? I don't, at the moment, but we're at least aware of 
where we're looking to do something different. This is when 
you're really in traditional physical exercise time--the kids 
go to recess, they do whatever. It's obviously not enough. So, 
we have to come up with something else.
    To answer your specific question, there does seem to be a 
general upward trend, in terms of weight; downward trend, in 
terms of healthy weight.
    Senator Casey. Why do you think that is, if I can ask that?
    Ms. Kirkpatrick. I'd like to answer that. I taught 20 years 
at the middle school. If 94 percent of all kids coming into 
elementary school have high self-esteem; by the time they get 
to middle school, only 20 percent have high self-esteem. I 
worried about whether we were part of the problem.
    One of the first things that happens at the middle school 
is that you require them to shower, or you require them to get 
naked in front of others. I really felt that that was probably 
humiliation for quite a few kids. What we put in was individual 
dressing and showering on the boys and girls side, 6th grade 
through 12th grade, to eliminate that possibility that that 
might be one of the obstacles for humiliation. It was a huge 
change in the willingness to get dressed, to put on something, 
to go--even the ease of it.
    I think we've done some things that were very hard on kids, 
who don't have good self-esteem to begin with, and then we put 
them into this scenario. We also put the doors on every single 
bathroom stall, because, we thought, you have a right to 
privacy.
    Senator Casey. Mr. Shriver.
    Mr. Shriver. Just briefly, Senator, yes, I would say that 
what holds true for--I would agree with other panelists--
there's no vaccination here. Public policy, you always want to 
fix. There is no fix. You know, we grow and develop.
    I would say, what we found, particularly in developmental 
disability, is--young is good to start; the younger you start, 
the better. And that's true--we've known that for a long time, 
in brain development. We've known it a long time, in language 
development, in social competence, emotional development--
starting early is important. We found it, with physical 
development; it seems obvious, we should have known it before.
    We've started, just in the last few years, a program we 
call ``Young Athletes,'' which is a home- and childcare-based 
program to get children active at the age of 2, which is sort 
of a strike zone for a lot of diagnosis around developmental 
disability. We're seeing--we don't have the research on our 
work, but we've seen in the neurodevelopmental research, a high 
correlation between brain development and physical activity. 
I'm not a medical doctor, so I can't speak with authority here, 
but there seems to be a strong basis--again, common sense--if 
you're physically active, more alert. It suggests, also, 
stronger brain development, which may lead to increases in 
things like IQ, even, over time. So, I think the message would 
be, ``Start early and continue throughout the lifespan.''
    I would not suggest, however, that there's a place where, 
``If you can just get in here, or if you can get to them by 
this age''--I have never seen evidence to suggest that 
possibility.
    Ms. Yancey. Senator Casey, just a couple of comments. One 
comment--and again, tying in with some of the other panelists--
that there does seem to be a drop off point in terms of 
physical activity, and that usually happens earlier for girls. 
More in the middle-school age range for girls, a little later 
for boys. I would say one piece is to prevent that dropout; 
that's one opportunity for intervention.
    I would say there's another opportunity--and this gets to 
my point of, ``We can't just focus on what's happening in the 
school environment if we're going to really deal with the 
problem,'' and that some of what's going in the school 
environment is affecting the next generation, because we've got 
a lot of teenagers that are getting pregnant.
    The prenatal period is a critical place, in terms of 
obesity prevention, because we know that low-birth-weight kids 
and kids that are heavier at birth, both have increased risk of 
obesity in their lifetimes. Also we know that parents' support 
of physical activity is very important. The high-school age, in 
this case, mostly, gives us an opportunity to start to 
cultivate those habits for the next generation.
    Senator Casey. Thank you.
    Can I have one or two more? I know we're the only ones 
here, so we have a little more freedom, as long as the Chairman 
allows it.
    The Chairman. Go ahead.
    Senator Casey. Also, another question--I know I mentioned 
several, but I'll try to be more focused--the question of 
resources--and you may have already covered this, but I just 
want to get a sense of it--with regard to this ``problem,'' 
writ large, is it a problem of a lack of resources combined 
with a lack of commitment, or is it simply just that school 
districts and parents and families and communities have gotten 
away from it? Or is there a resource question, where they say, 
``We'd like to be more focused on health and wellness and phys 
ed, but we can't afford it.'' Can I have you comment on that, 
about just the narrow question of resources?
    Dr. Levin. Well, I'm from a small rural county which has 
very, very limited resources, and those resources obviously 
have to be, according to the No Child Left Behind, focused on 
reading. We've lost a lot of things--music and other things. I 
think it's got to be a community decision, to see what other 
resources can be brought to bear. What we found--I'm sorry, you 
have my comments--but, in working together between a number of 
different community agencies--public health and a community 
health center--the resources can be found to do some of these 
things in collaboration. In the end of the day, the local 
health school system is actually putting considerable amount of 
funding in to the programs that we're talking about, but 
they're being matched, or at least partially matched, by other 
resources.
    I think a lot of it goes back to something we've all talked 
about, which is innovation, creativity, and commitment, to 
saying, ``This is important and we're going to make it 
happen.''
    They are not easy resources to get, and it is, maybe, 
something that could be incentivized, which I think is a good 
idea. I always think that works well.
    Senator Casey. Thanks.
    Anybody else, on this question?
    Mr. Pate. Yes.
    Senator Casey. Go ahead.
    Mr. Pate. I think it's both. I think many of the 
initiatives that would be very meaningful, in terms of 
increasing the amount of physical activity that kids get during 
the school day, really are just a matter of the policymakers 
deciding that it's important enough to do it. An example would 
be, most schools have a policy that kids in the elementary 
schools will have recess every day. That tends to be a poorly 
enforced policy. If the principal decides, on Monday morning, 
that it's going to happen the way it's supposed to happen, and 
the kids have the recess, and they have it in an environment 
that's conducive to physical activity, that will add one little 
dose of activity to those children's lives. That doesn't cost 
anything.
    It doesn't cost anything to deliver physical education, 
better, in a way that the kids enjoy it, and there's a high 
exposure to moderate to vigorous physical activity when they're 
there.
    Now, to double the exposure to physical education costs 
money, because that's more teacher time and maybe more space 
and more equipment and so on.
    I think it's both, but I think we can do a lot just by 
enforcing reasonable policies that are not very costly. I 
think, to do it all, in some cases, would take new resources.
    Ms. Yancey. I agree with Dr. Pate in that regard. We 
actually completed a health impact assessment for this--a 
statewide project funded by the California endowment, in 
looking at what would be the best way to get kids more physical 
activity. We looked at things like walking to and from school, 
extending the duration of PE, extending the duration of recess, 
and also getting more of the time that kids spend in PE class 
active. And just because of the exposure level--because almost 
all kids are there, and that requirement exists--we found that 
just getting more activity time during the existing PE sessions 
would actually deliver more minutes of moderate to vigorous 
physical activity.
    It's not to say that we don't need more resources, and we 
certainly do; but, in the current climate, that's probably not 
going to happen. These opportunities of both extending the 
activity minutes during PE and also incorporating brief bouts 
of physical activity throughout the school day and, really, 
throughout the society--because I think that happens in Japan 
and China and other places, where people stop in the grocery 
store and start doing these activity breaks that are broadcast. 
We think of it, in this country, as, ``Wow, well, that's 
something different, and we're into rugged individualism.'' In 
fact, the majority of communities of color, dancing as a group 
is something that's done throughout the lifetime; it's a form 
of cultural expression.
    And that's my other point, that we really should capitalize 
on cultural assets.
    Mr. Shriver. I agree. I would just say one thing, and maybe 
I'll go out on a limb here, Senator, and just say, everything 
in schools--that is not standardized-test-measured--has been 
under massive pressure. We have cultural issues, we have time-
on-task issues, as my colleagues have said here, and I think 
those are--the truth is, I believe that the vast majority of 
educators will tell you that, in the era of NCLB, everything--
everything--has been squeezed, massively squeezed. These people 
are under extraordinary pressure to eliminate anything that is 
not going to drive standardized-test performance.
    Sadly, as you know very well, as a result of that, they 
have created a learning environment that is unlikely to lead to 
standardized-test improvements over the long run.
    It's a little bit of a catch-22 here again. Not to say we 
throw out the baby with the bath water, but just to say, that, 
to be blunt, ``Yes, physical education is under pressure,'' as 
arts education is under pressure, work around problem-solving 
and decisionmaking skills are under pressure, service learning 
is under pressure. The whole fabric of public education, that 
roots itself in this country for 150 years around citizenship 
and the development of caring and committed Americans, is under 
pressure if it is not being tested in the current environment.
    Senator Casey. That is consistent with what I've heard.
    The Chairman. Very good.
    Senator Casey. And we didn't talk before this.
    [Laughter.]
    Thank you very much.
    The Chairman. I think what Mr. Shriver just said is right 
on target.
    Talking about resources, in Grundy Center, you bought all 
these electronic devices and technology, got all this high-tech 
stuff. That costs money.
    Ms. Kirkpatrick. Well the technology funds in schools--last 
year, $7 billion was spent by school districts on technology. 
For some reason, the physical education profession doesn't 
think that's part of their money. In the schools themselves, 
Grundy Center schools will spend $300,000 this year on 
technology. That doesn't mean it's for math or for the library 
or for the food service or for whatever. A portion of that 
money is for PE. I was really upset with Sioux Falls, SD, one 
time when I was doing a workshop, and I said, ``Why don't 
you''--I was eating lunch with the superintendent--I said, 
``How come you don't give those physical educators some of that 
tech money?'' And he had a great answer. He said, ``I would 
hardly give money to people who haven't asked for it and, if so 
given, wouldn't know what to do with it.''
    [Laughter.]
    In this day and age, that technology money is out there. We 
don't have to have a new computer lab again until everybody 
else is up to speed. We have to have an interest in holding 
people accountable. I think it does go back to having the 
physical educator, with responsible data-collecting abilities 
in this century, presenting it to the school board and saying, 
``Look what we've done.'' When you've done that, the money will 
come, and the resources will follow that. You can't keep asking 
for something that doesn't work.
    One of the big wake-up calls in my profession should have 
been that when they take you out of the curriculum, they're not 
very happy with what you're doing. Make a change.
    We have to go to a more health-club atmosphere in the high 
schools, more individualized activities, more Dance Dance 
Revolution, more gadgets, more gizmos, more rock-climbing 
walls. We've got to have a different look at what it is that we 
think will attract people to be healthy and well and fit. Team 
sports, that's not going to do it. One percent of all people 
over age 24 play team sports. That's not the future for these 
high-school kids. It's a health-club atmosphere. That money has 
come from all kinds of resources. But, where there's a will--
we're able to show results.
    The Chairman. Well, I hope there's room for both--that 
which you talk about, and also for team sports. Team sports 
build up the kind of social interactions that allow people to 
develop friendships, overcome integration, break down barriers. 
I don't mean the kind of teams where you've got to be so good, 
that you're on the football team or the basketball team. I just 
mean, pickup basketball, like we played when I was a kid. I was 
never on a basketball team, but we always played basketball or 
we played touch football or soccer--no, we didn't play much 
soccer.
    [Laughter.]
    My kids played soccer. I think there's something to be said 
for team sports. Just so they don't think that they've got to 
be the best to get on the football team.
    Ms. Kirkpatrick. Well, the reality is, 90 percent of all 
kids, by age 15, drop out of organized athletics. There just 
isn't room in intramurals.
    Mr. Shriver. If I could add, that because there's no 
organized athletics for them to participate in. There is only 
elite organized athletics.
    Ms. Kirkpatrick. Right.
    Mr. Shriver. The State of Maryland has adopted a title IX-
like law to require after-school competitive sports activities 
for children with disabilities, intellectual and developmental 
disabilities--like title IV--saying that competitive team 
sports should be an option for people of all ability levels.
    There is a culture that says team sport, by the time you 
get to a certain age, is elite sport. That culture is 
profoundly problematic, because most kids, most adults, if they 
were given the chance, would still like to play, but they 
believe that they have been sort of ``seniored-out'' because 
they weren't able to make the next level of competitive rigor. 
It particularly punishes women and girls.
    The Chairman. Yes.
    Mr. Shriver. Because elite performance in women and girls 
tends to be smaller numbers, and women and girls tend to have a 
lower self-image, they tend to think they're not as good as 
they even are. They almost self-select out of these sports, 
because the mentality says, ``You have to be performing at a 
certain level.''
    I agree with you that, over the lifespan, you can't hope 
everybody's going to be able to do three practices a week for--
if you're a U.S. Senator, you can't show up at practice and 
play on weekends. The idea that team sports and organized 
sports has been denied to people, I think we just have to be 
honest and say that--and this is not a cost issue, Senator. 
There are thousands and thousands of American community 
leaders, parents, who would be happy to be volunteers.
    The Chairman. Yes.
    Mr. Shriver. You've seen this in your State. When asked, 
they will respond.
    The Chairman. Yes.
    Mr. Shriver. We don't have to create a whole superstructure 
of Federal Government enterprise to do these things. This 
doesn't have to be a budge issue in its primary 
characteristics. It can be very much a community--and this is 
where the leverage of the Federal Government, the platform of 
the Federal Government, the invitation of the Federal 
Government, to renew its commitment to health, to sport, to 
physical activity, to invite community organizations to 
challenge schools, to set standards, to remind people that we 
believe in a balanced and healthy lifestyle and strong 
citizenship and social competence and emotional self-awareness.
    This is the American vision. It's not of children who 
pass--who get good scores on reading scores. Of course you've 
got to do reading, of course you've got to do math. No one's 
questioning that. But, that's not the full vision of the 
country, and never has been. And I think we've lost some of the 
broader view.
    The Chairman. Well said, and I think that's the point of 
all this.
    We've had hearings on the whole child--to discuss the 
importance of developing the whole child in school, focusing on 
the whole child. This is part of it. You're right, we've got to 
figure out how we bring these other entities into play--you 
mentioned the Rotarians, the Kiwanis, the local Ys, and how we 
get them involved. And, you're right, there are a lot of people 
out there who want to volunteer, but they need a structure in 
which to volunteer.
    [Off-mic witness agreement.]
    ``Sure, I'll do it, but who's going to lead me, who's going 
to guide me, who's going to pull this together?''
    [Off-mic witness agreement.]
    People will do it if they have that kind of structure out 
there.
    What we've got to do is identify the best ways to promote 
that. How do we provoke that, here? As I said, we're trying to 
accomplish some of this through the FIT Kids Act, including 
bringing in these outside entities. The question is, in ESEA, 
how do we start moving our schools to a fully integrated health 
approach, a healthy environment for kids, that promotes mental 
health, physical activity and wellness?
    I was taken by your testimony, Dr. Levin, about all the 
kids and how many trained social and child psychologists you 
had there to help students. Some of these kids have tough 
lives, they have tough days, they have tough homes and they 
just need some support and some help. If they get that, then 
they'll probably be better off playing in sports and getting 
involved in positive kinds of activities.
    That's what we're looking at in ESEA. We have one more 
hearing, next week, focused on early childhood education. That 
hearing will complete our series of 10 hearings, covering all 
the aspects of elementary and secondary education. I really 
wanted this panel here, because I feel so strongly that we're 
not doing right by our kids if we're not involving them in 
daily activities that promote health, improve well-being 
wellness and increase physical activity. We're just not. I'm 
trying to figure out how we best incorporate, in our bill, 
those kinds of measures that use the ``leverage,'' as you said, 
Mr. Shriver--the leverage of the Federal Government to try to 
move positive physical ed exercise, nutrition and wellness.
    Dr. Yancey, I think you, maybe, are going to have the last 
word.
    Ms. Yancey. OK. Well, I just wanted to say that we need a 
sea change. We need culture change. Thirty years ago, somebody 
would have been smoking in this room, and 20 years ago, we'd 
probably have sodas on the desk. We've made some major strides. 
Really, physical activity is kind of a last frontier here, 
because the prevalence rates are just so low. Fewer than 5 
percent of adults get 30 minutes a day, 5 days a week. I think 
we need to figure out, in terms of the policymaking that sets 
this up, how we can encourage it with incentives. Also, 
everybody's got to look in the mirror and make a determination 
about what each of us can do.
    The Chairman. Well, that is a good way to end this hearing.
    Thank you all very, very much.
    We'll leave the record open for 10 days.
    I ask each of you to keep tabs on what we're doing here and 
I hope you all have our special e-mail address. It's very easy. 
It's ESEAcomments at HELP--H-E-L-P--at HELP DOT Senate DOT gov. 
So, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ace9ffe9edcfc3c1c1c9c2d8dfece4e9e0fc82ffc9c2cdd8c982cbc3da82">[email&#160;protected]</a> We have established that just 
for people to provide comments and recommendations. As you 
follow what we're doing here, I invite you to keep giving us 
your input. Hopefully my staff or I can be back in touch with 
you as we move ahead to, maybe, bounce some more things off 
you, ``Are we going the right way? Are we doing this right?'' 
that type of thing.
    I hope, in the next several weeks, we can have that open 
exchange with each of you.
    Well, thank you very much. Great hearing. I really 
appreciate it.
    The committee is adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]

                                   

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
